<html>
<title> - ENHANCING BORDER SECURITY</title>
<body><pre>[Senate Hearing 106-1063]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1063

                       ENHANCING BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION


                               __________

                           FEBRUARY 10, 2000

                               __________

                          Serial No. J-106-64

                               __________

         Printed for the use of the Committee on the Judiciary

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
72-523                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York
                   Lee Liberman Otis,  Chief Counsel
                 Melody Barnes, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Abraham, Hon. Spencer a U.S. Senator from the State of Michigan..     1
Feinstein, Hon. Dianne a U.S. Senator from the State of 
  California.....................................................     4
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    15

                               WITNESSES

Callister, Rayn H., Immigration Inspector, Immigration and 
  Naturalization Service, and Steward, Local 40, American 
  Federation of Government Employees, prepared statement.........    37
Dean, Diana, Customs Inspector, U.S. Customs Service.............    16
Gorton, Hon. Slade, a U.S. Senator from the State of Washington, 
  prepared statement.............................................     8
Kelley, Colleen M., prepared statement...........................    88
Lindemann, Robert E., Senior Border Patrol Agent, Detroit Sector, 
  and Union Steward, National Border Patrol Council, American 
  Federation of Government Employees, prepared statement.........    34
Pearson, Michael A., Executive Assistant Commissioner for Field 
  Operations, Immigration and Naturalization Service, prepared 
  statement......................................................    22
Smith, Ora A., Immigration Inspector, Special Operations, 
  Immigration and Naturalization Service, prepared statment and 
  attachments....................................................    40
Winwood, Charles W., Acting Deputy Commissioner, U.S. Customs 
  Service, prepared statement....................................    17

 
                       ENHANCING BORDER SECURITY

                              ---------- 


                      THURSDAY, FEBRUARY 10, 2000

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:39 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.
    Also present: Senator Feinstein.

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. We welcome you all here today. Sorry about 
the delay in getting the hearing going. As I think everybody 
knows, there were two votes called right at 2 p.m. So we are 
still expecting Senator Gorton to return, and when he does, we 
will let Senator Murray and Senator Gorton introduce Inspector 
Dean.
    But in the interim, what I thought I would do is begin the 
hearing with an opening statement. Senator Feinstein will have 
one as well, and we will work in the two Senators as it becomes 
possible to do so.
    Well, there is Senator Gorton. We welcome him.
    Today, we will address the issue of enhancing border 
security. On December 14, 1999, Ahmed Ressam was arrested after 
attempting to enter Port Angeles, WA. He was found with 
nitroglycerin and other potential bomb-making material. He was 
successfully apprehended, but he will not be the last one to 
try.
    This committee is committed to providing our Federal 
agencies with the support they need to stop terrorists. We have 
seen in action the critical role that border security personnel 
play in protecting Americans. Recent high-profile alien and 
drug smuggling cases have also served as a further reminder of 
our border security system's important functions. These 
incidents have also focused renewed attention on the critical 
importance of maintaining adequate personnel resources at our 
borders to allow these functions to be performed, and performed 
effectively.
    I hope today's hearing will shed light on four areas, in 
particular: First, what happened in Washington State in the 
days prior to the New Year and how Federal agencies responded 
to those events; second, what steps INS and Customs took and 
how did the two agencies coordinate their activities.
    Third, what other factors enhanced our ability to respond? 
In particular, how did cooperation between Canada and the 
United States, the world's strongest bilateral relationship, 
work during these incidents, and how does it work more broadly 
to protect Americans from potential dangers? And, finally, 
fourth, what additional resources are necessary to help deter 
and defend against terrorists, drug smugglers, and others 
seeking to do harm across our borders?
    I believe recent events show what works to deter and defend 
against unlawful activity at the border. As we will hear today, 
skilled, trained personnel are our best line of defense. At 
Port Angeles, it was trained Customs personnel who made the 
difference. In addition, we needed the intelligence 
capabilities that allowed us to follow up in the Ressam case, 
and intelligence also alerted the U.S. Government as to where 
other threats existed.
    Recent events also show that our agencies responded quite 
admirably to the immediate need for greater vigilance. In 
reaction to intelligence reports and the arrest in Washington 
State, INS and Customs added shifts and transferred a 
significant number of additional personnel to ports of entry at 
the northern border. This heightened readiness enhanced our 
ability to detect and deter unlawful activity.
    Finally, however, these events also demonstrated that we 
have unmet needs. In particular, it appears that the heightened 
readiness achieved in the last week of December was accompanied 
only by rather heroic efforts on the part of the key branches 
of Customs and INS. But as we will hear today, it appears that 
our current level of readiness cannot be maintained on a 
permanent basis with existing resources.
    The need for additional inspectors and investigative 
personnel at ports of entry has been a recurring theme in the 
oversight and legislative activities of this subcommittee. The 
Border Improvement and Immigration Act, S. 745, which I 
introduced with 27 Senate cosponsors, would provide a net 
increase of over 900 INS inspectors at ports of entry, 375 on 
the northern border and 535 in the Southwest. In addition, the 
bill would provide for increased intelligence officers and 
significantly enhanced tools to combat terrorism, drug 
smuggling, and illegal immigration. A similar set of resources 
is also provided for the Customs Service in the bill, including 
antinarcotics equipment and over 900 additional Customs 
inspectors.
    We have other important unmet needs in closely related 
areas. Three years ago, Senator Kyl and I included, through an 
amendment in the 1996 Illegal Immigration Reform and Immigrant 
Responsibility Act, a provision that mandated a net increase of 
1,000 new Border Patrol agents a year in each of the following 
years through fiscal year 2001.
    Unfortunately, in only one of those years, fiscal year 
1999, did the President's budget ask for the funds necessary to 
hire the required agents. Moreover, although Congress 
appropriated the money over the 3-year period, the targeted 
level was not achieved because we fell short of our recruitment 
efforts by a net of 594 agents. We have actually had hearings 
to look at that issue and try to find ways to make sure that we 
have the ability to meet the level of agent recruitment that we 
are trying to target.
    We must improve on this record. Unfortunately, the 
President's new budget falls short of the 1,000 new Border 
Patrol agents mandated by a total of 570 agents. The 430 new 
agents the President proposes for fiscal year 2001 doesn't even 
make up for the 594 agents that we have fallen short in 
recruitment efforts over the last 3 years. So we want to look 
at that issue both on the budget side as well as here in the 
committee to try to figure out how we can not only provide the 
resources but recruit the quality people we need.
    The Border Patrol is significantly understaffed at the 
northern border. Overall, there are fewer than 300 Border 
Patrol agents responsible for the nearly 4,000-mile-long border 
the United States shares with Canada.
    Inadequate staffing is also a problem for both INS and 
Customs inspectors. In a May 18, 1999, letter I urged Customs 
Commissioner Kelly and INS Commissioner Meissner to provide 
additional INS and Customs personnel to ports of entry in 
Michigan, where our shortages are clearly felt. That would not 
only help with security, but would helprelieve significant 
traffic problems at our various ports of entry.
    So these are some of the issues that we want to focus on, 
but in particular today I think we want to make it clear that 
this committee recognizes the key role that personnel play to 
help pursue cross-border criminal activities, especially such 
things as the smuggling of people across borders or terrorist 
activities.
    We are very excited about the panel today and the chance to 
hear from people who have been on the front line. We will hear 
from Michael Pearson and Charles Winwood, who respectively head 
field operations for INS and Customs, and we welcome you.
    But in addition to a view from headquarters, we also wanted 
to hear from people on the front line. That is why we have here 
today Diana Dean, the Customs agent who first interviewed Ahmed 
Ressam in Port Angeles. It was her quick thinking and 
resourcefulness that may be most responsible for having 
prevented potential tragedy.
    On our second panel--I will get into more details when we 
bring it up here, but we will be hearing from Robert Lindemann, 
who is a Border Patrol agent with the Detroit Sector; Ryan 
Callister, an INS inspector from Idaho; and Ora Smith, an INS 
inspector in Michigan, all of whom can describe the vital 
personnel resources America needs to maintain a strong 
deterrent.
    The best way to defend our borders against drug smugglers, 
would-be terrorists and criminals is through solid 
intelligence, a strong Border Patrol, a sound inspections 
regime, and a sufficient number of investigators. In my view, 
it is essential that we allocate the resources to make this 
happen and thereby guard against unlawful entry and against 
those who are seeking to do harm on American soil. Recent 
events show how effective this combination can be and how 
important it is to make sure we invest now to make sure our 
efforts are adequate to the task.
    At this point, we will hear from Senator Feinstein, and 
then we will go to Senators Gorton and Murray to introduce one 
of our witnesses.
    Senator Feinstein, thank you for being here.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Well, thanks very much, Mr. Chairman. 
Senator Murray was good enough to introduce me to Inspector 
Dean, and I want to give you my warmest congratulations, and 
also hope you will relay that to your colleagues, Mark Johnson, 
Carmon Clem, and Mike Chapman, for the stop that you made. It 
was certainly very fine work.
    Mr. Chairman, one of the things that I think has happened 
is, as we have increased the enforcement presence on the 
southwest border, we have seen a shift of illegal entry from 
the southwest to the northern border. Northern Border Patrol 
agents have recently reported Mexicans flying to Canada and 
attempting to slip illegally into the United States from the 
north.
    Given the fact that international terrorists have focused 
on Canada rather than Mexico, the northern border situation is 
in some ways even more serious than that in the Southwest. 
Holes in United States-Canada border enforcement have permitted 
international terrorists to enter quite easily. Indeed, since 
1995, there have been 13 known cases of terrorists crossing to 
the United States from Canada, and those are just the ones we 
know about.
    As the Canadian Security Intelligence Service concluded in 
a 1997 report, most of the world's terrorist groups have 
established themselves in Canada, seeking safe haven, setting 
up operational bases, and attempting to gain access to the 
United States. These groups follow a familiar pattern of 
behavior of making fraudulent use of false or valid travel 
documentation and arranging the illegal transit of members to 
the United States and other countries.
    Indeed, Canada's generous immigration policies have meant 
that terrorist groups can more easily establish and maintain 
cells there. In 1998, the CSIS stated that it had active 
investigations into 50 terrorist groups and 350 individuals. 
These include virtually every terrorist group in the world, 
including Hezbollah, Hamas, radical Islamic groups from Algeria 
and Iran, the Tamil Tigers of Sri Lanka, the IRA, Sikh 
separatists, the Kurdish Worker's Party, Palestinian Force 17, 
and the Iranian Intelligence Service.
    But since 1992, Canada has only deported 11 people as 
terrorists, and before that none. Indeed, starting in 1997, 
Canada stopped extraditing people to Algeria because of the 
violence there. Some commentators have argued that these 
numbers are the result of lax Canadian procedures and poor 
cooperation between police and immigration authorities.
    These individuals point to Ahmed Ressam as a perfect 
example. Ressam, an Algerian native, arrived in Canada in 1994 
with a French passport under another name. He was later 
actually arrested and deported. Then he went underground and 
obtained a Canadian passport using only a Roman Catholic 
baptism certificate, a common practice in Quebec. He remained 
at liberty in Canada, free to enter the United States 
illegally.
    Gazi Ibrahim Abu Mezer, a Palestinian who claimed Jordanian 
nationality, is another example. He applied for refugee status 
after arriving in Canada in 1993, which permitted him to remain 
in the country, despite two criminal convictions there. As an 
asylum applicant, Mezer was also entitled to free legal 
counsel, welfare payments, and full access to the healthcare 
system.
    Moreover, because Canada lacks something like the U.S. 
expedited removal system which allows quick deportation of 
those with manifestly unfounded claims, an applicant such as 
Mezer could expect to stay in Canada, at government expense, 
for a year or even longer. This would give him enough time to 
try to sneak into the United States, which, as he later 
admitted, was exactly why he went to Canada in the first place.
    Indeed, Mezer tried to enter the United States illegally 
three times. The third time, he was picked up by the Border 
Patrol 25 miles inside the U.S. States border in Bellingham, 
WA. INS attempted to remove him, but a judge released him on 
bond, in part because the judge erroneously believed that the 
State Department had checked its records but found no evidence 
that Mezer had any association with terrorism.
    Mezer then went on to move to Brooklyn, to set in motion 
his plan to bomb a busy New York subway station. Mere hours 
before Mezer and another man, Lafi Khalil, intended to carry 
out their attack, police raided the terrorist apartment and 
shot and wounded them. Before he was convicted in July 1998, 
Mezer testified that the goal of his suicide attack was to kill 
as many Jews as possible.
    While Ressam and Mezer were ultimately apprehended, it 
seems astonishing that they were really actually caught at all. 
Our northern border, excluding Alaska, extends almost 4,000 
miles. But last year, this border had only 300 agents, about 1 
agent for every 13 miles of border. In comparison, the 
southwest border, 2,000 miles long, had 8,000 agents, 4 agents 
for every mile.
    Don't mistake me. I am not criticizing that. I support it 
and I am all for it.
    And the sector-by-sector breakdown of Border Patrol agents 
is even more dispiriting. Last year, in the Detroit Sector, for 
instance, about 20 agents covered 4 States, and in western 
Washington there were 4 agents for 102 miles of border.
    Moreover, even if a possible terrorist is apprehended, 
there is no guarantee that the person won't just be released 
with a deportation hearing notice, which, of course, means that 
he or she will just disappear, free to carry out a planned 
attack.
    The Department of Justice Inspector General, for example, 
found a few years ago that immigration authorities almost never 
checked to see if illegal aliens they caught in the Blaine 
Sector in Washington State were suspected terrorists. Blaine is 
the most heavily traveled crossing between Canada and the 
United States west of Detroit. In addition, the Inspector 
General determined that INS and the Department of State did 
terrorism checks on only about 10 percent of the 150,000 asylum 
applications filed by asylum officers each year.
    So even if an alien is caught along the northern border, 
the person will often not be detained or repatriated. The INS 
simply lacks the money. Last year, for instance, there was 
testimony that no INS detention facility existed in the Detroit 
metro area. Agents discovering an illegal alien had to rely on 
local jails to detain the alien and then pay for that 
privilege. Indeed, distances are so great and the Border Patrol 
so sparse that an agent could travel 200 miles to pick up an 
alien from another law enforcement agency and then just process 
and release the person.
    What we need is more cooperation with Canada. As the former 
Coordinator for Counterterrorism at the Department of State, 
Phillip Wilcox, has stated, ``The most effective way of 
minimizing penetration of our land borders is close cooperation 
with the Canadian and Mexican governments. Since Mexico has not 
been a focus of international terrorism, the bulk of my 
experience was working closely with Canadian law enforcement 
and counterterrorism officials.''
    We also need, as you have pointed out, Mr. Chairman, more 
cooperation between INS, Customs, domestic law enforcement, and 
our defense and intelligence communities. I am pleased, for 
instance, to see that in cities such as Detroit, INS special 
investigation agents have been assigned to FBI-led joint 
terrorism task forces. We need to do much more along these 
lines.
    To counter terrorism at the northern border, we also need a 
strategy that focuses not just on deterrence but on physical 
checks on streets, at farm, on ranches, and in jails. Shows of 
force such as Operation Gatekeeper or Operation Hold-the-Line 
may be effective in deterring illegal immigration from Mexico, 
but are not going to dissuade terrorists seeking to come in 
from Canada.
    These terrorists are more sophisticated than the average 
illegal alien. They will plan their move across the border 
carefully. They will come laden with high-quality forged 
identification documents or genuine documents under an assumed 
name.
    In terms of sheer numbers, terrorism doesn't yet kill many 
people. Terrorists murder fewer than 2 dozen Americans each 
year. In comparison, gun shots kill about two dozen American 
children every 2 days. However, speaking as the ranking member 
on our committee's Terrorism Subcommittee, the growth potential 
is enormous, and if we are going to carry out our number one 
responsibility, which is to protect the national security of 
this country, we cannot ignore this area.
    I thank you, Mr. Chairman. I look forward to the testimony.
    [The prepared statement of Senator Feinstein follows:]

             Prepared Statement of Senator Dianne Feinstein

    Thank you, Mr. Chairman. I am pleased to be here today to discuss 
the important subject of enhancing the security of our borders. I am 
especially delighted to see Inspector Diana Dean here today. Inspector 
Dean played a vital role in detecting and arresting Ahmed Ressam, an 
alleged terrorist with ties to the Algerian Armed Islamic Group, who 
was smuggling a huge cache of bombing materials and equipment in his 
car trunk. She helped prevent what could have been one the most serious 
terrorist attacks of recent years, one that might have otherwise 
resulted in terrible damage and suffering.
    I join my distinguished friends in applauding the efforts of 
Inspector Dean and her colleagues Mark Johnson, Carmon Clem, and Mike 
Chapman in stopping that man. And I congratulate them on winning 
Exceptional Service Awards for their outstanding performance.
    The topic of border security is of preeminent importance, not only 
to my own state of California, which shares a border with Mexico, but 
to other states in the south and north. And, while I firmly believe 
that our immigration authorities must do much more on the problem of 
alien and drug smuggling and illegal alien entry on our southwest 
border, I also recognize that these problems plague our northern border 
as well. Indeed, strategies to protect the integrity of our northern 
and southwest borders are inextricably linked. As the enforcement 
presence has increased on the southwest border, we have seen a shift in 
illegal entries from the southwest to the northern border. Indeed, 
northern Border Patrol agents have recently reported Mexicans flying to 
Canada and attempting to slip illegally into the U.S. from the north.
    Moreover, given the fact that international terrorists have focused 
on Canada rather than Mexico, the northern border situation is in some 
ways even more serious than that in the southwest; holes in U.S.-Canada 
border enforcement have permitted international terrorists to enter 
quite easily. Indeed, since 1995, there have been 13 known cases of 
terrorists crossing into the U.S. from Canada since 1995. And those are 
just the ones we know about.
    As the Canadian Security Intelligence Service (CSIS) concluded in a 
1997 report: ``Most of the world's terrorist groups have established 
themselves in Canada, seeking safe haven, setting up operational bases, 
and attempting to gain access to the USA. * * * [These groups] follow a 
familiar pattern of behaviour of * * * making fraudulent use of false 
or valid travel documentation [and] arranging the illegal transit of 
members to the United States and other countries.''
    Indeed, Canada's generous immigration policies have meant that 
terrorist groups can moreeasily establish and maintain cells there. In 
1998, the CSIS stated that is had active investigations into 50 
terrorist groups and 350 individuals. These include virtually every 
terrorist group in the world--including Hezbollah, Hamas, radical 
Islamic groups from Algeria and Iran, the Tamil Tigers of Sri Lanka, 
the IRA, Sikh separatists, the Kurdish Worker's Party, Palestinian 
Force 17, and the Iranian intelligence service.
    But, since 1992, Canada has only deported 11 people as terrorists. 
And before that, none. Indeed, starting in 1997, Canada stopped 
extraditing people to Algeria because of the violence there. Some 
commentators have argued that these numbers are the result of lax 
Canadian procedures and poor cooperation between police and immigration 
authorities.
    These individuals point to Ahmed Ressam as a perfect example. 
Ressam, an Algerian native, arrived in Canada in 1994 with a French 
passport under another name. He was later ordered arrested and 
deported. But he then went underground and obtained a Canadian passport 
using only a Roman Catholic baptism certificate, a common practice in 
Quebec. He remained at liberty in Canada, free to enter the United 
States illegally.
    Gazi Ibrahim Abu Mezer, a Palestinian who claimed Jordanian 
nationality, is yet another example. He applied for refugee status 
after arriving in Canada in 1993, which permitted him to remain in that 
country despite two criminal convictions there. As an asylum applicant, 
Mezer was also entitled to free legal counsel, welfare payments, and 
full access to the health care system. Moreover, because Canada lacks 
something like the U.S. Expedited Removal System, which allows quick 
deportation of those with manifestly unfounded claims, an applicant 
such as Mezer could expect to stay in Canada at government expense for 
a year or even longer. This would give him enough time to try to sneak 
into the U.S.--which, as he later admitted, was exactly why he went to 
Canada in the first place.
    Indeed, Mezer tried to enter the U.S. illegally three times. The 
third time, he was picked up by the Border Patrol 25 miles inside the 
U.S. border in Bellingham, Washington. INS attempted to remove him but 
a judge released him on bond, in part because the judge erroneously 
believed that the State Department had checked its records but found no 
evidence that Mezer had any association with terrorism. Mezer then went 
on to move to Brooklyn, to set in motion his plan to bomb a busy New 
York subway station. Mere hours before Mezer and another man, Lafi 
Khalil, intended to carry out their attack, police raided the 
terrorists apartment and shot and wounded them. Before he was convicted 
in July 1998, Mezer testified that the goal of his suicide attack was 
to kill as many Jews as possible.
    While Ressam and Mezer were ultimately apprehended, it seems 
astonishing that they were caught at all. Our northern border 
(excluding Alaska) extends almost 4,000 miles. But last year, this 
border only has about 300 agent--about one agent for every thirteen 
miles of border. In comparison, the southwest border is 2,000 miles and 
had 8,000 agents--four agents for every mile. And the sector-by-sector 
breakdown of Border Patrol agents on our northern border is even more 
dispiriting. Last year, in the Detroit sector, for instance, about 
twenty agents covered four states, and in western Washington State, 
there were about four agents for 102 miles of border.
    We know that 8,000 agents have been too few to stem the tide of 
illegal alien smuggling, drug smuggling, and illegal alien entry in 
southwestern states such as California. Three hundred agents for 4,000 
miles border in the north is also not enough.
    Moreover, even if a possible terrorist is apprehended on our 
northern border, there is no guarantee that the person will not just be 
released with a deportation hearing notice--which, of course, means 
that he or she will just disappear, free to carry out a planned attack. 
The Department of Justice Inspector General, for example, found a few 
years ago that immigration authorities almost never checked to see if 
illegal aliens they caught in the Blaine Sector in Washington State 
were suspected terrorists. Blaine is the most heavily traveled crossing 
between Canada and the U.S., west of Detroit. In addition, the 
Inspector General determined that INS and the Department of State did 
terrorism checks on only about ten percent of the 150,000 asylum 
applications filed by asylum officers each year.
    And even if an alien is caught along the northern border, the 
person will often not be detainedor repatriated. The INS simply lacks 
the money. Last year, for instance, there was testimony that no INS 
detention facility existed in the Detroit Metro area. Agents 
discovering an illegal alien had to rely on local jails to detain the 
alien and then pay for that ``privilege.'' Indeed, distances are so 
great along the northern border and the Border Patrol so sparse, that 
an agent could travel 200 miles to pick up an alien from another law 
enforcement agency and then just process and release the person.
    What we need is more cooperation with Canada. As the former 
Coordinator for Counterterrorism at the Department of State, Phillip 
Wilcox, has stated, ``The most effective way of minimizing penetration 
of our land borders is close cooperation with the Canadian and Mexican 
Governments. Since Mexico has not been a focus of international 
terrorism, the bulk of my experience was working closely with Canadian 
law enforcement and counterterrorism officials.''
    We also need more cooperation between INS, Customs, domestic law 
enforcement, and our defense and intelligence communities. I am 
pleased, for instance, to see that--in cities such as Detroit--INS 
special investigations agents have been assigned to FBI-led Joint 
Terrorism Task Forces. We need to do more along these lines.
    To counter terrorism at the northern border, we also need a 
strategy that focuses not just on deterrence but on physical checks on 
streets, at farms and ranches, and in jails. Shows of force such as 
Operation Gatekeeper or Operation Hold-the-Line may be effective in 
deterring illegal immigration from Mexico but are simply not going to 
dissuade terrorists seeking to come in from Canada. Terrorists are more 
sophisticated than the average illegal alien. They will plan their move 
across the border carefully, and come laden with high-quality forged 
identification documents or genuine documents under an assumed name.
    As Ranking Member on the Technology, Terrorism, and Governmental 
Information Subcommittee of the Senate Judiciary Committee, I know that 
terrorism is a huge problem today and becoming even bigger. Terrorism 
can result in the death of hundreds or even thousands of innocent men, 
women, and children. It also leaves economic and property damage and 
widespread fear and disruption in its wake.
    Mr. Chairman, I thank you for holding a hearing on this important 
subject and look forward to working with you and the other members of 
this Subcommittee to give this matter the attention it demands.

    Senator Abraham. Senator Feinstein, thank you very much.
    To introduce our first witness, Inspector Dean, I am going 
to turn to the two Senators from Washington, Senator Gorton and 
Senator Murray.
    Senator Gorton, thank you for being here.

 STATEMENT OF HON. SLADE GORTON, A U.S. SENATOR FROM THE STATE 
                         OF WASHINGTON

    Senator Gorton. Mr. Chairman, I begin by thanking the 
subcommittee for holding this hearing and for allowing me to 
participate. I can think of few issues more important than 
ensuring the security of our borders.
    Everyone here is aware of the alarming incident last 
December in which a man attempting to cross the border into the 
United States via ferry at Port Angeles, WA, was found to be 
carrying significant amounts of bomb-making materials in the 
trunk of his rented car. We cannot say for sure exactly what 
that man, Ahmed Ressam, intended to do with those explosive 
materials, though it is becoming more clear that he is part of 
a much larger conspiracy of international terrorism.
    What we know for sure is that through the professional 
expertise of the woman who will be speaking with you today, a 
likely disaster was averted. It is not an overstatement to say 
that our Nation owes a debt of gratitude to Inspector Diana 
Dean and the other Customs Service employees in Port Angeles 
for apprehending Mr. Ressam before he and his co-conspirators 
could perpetrate whatever acts of terror they had planned 
against the United States. And I know I share those sentiments 
with my colleague, Senator Murray, and with the entire 
Washington congressional delegation.
    For a number of years, I have expressed my concern with the 
insufficient personnel levels at our northern border, as have 
many of my colleagues in the Senate, including members of this 
committee. It is unfortunate that it has taken an incident as 
alarming as the case of Ahmed Ressam to draw attention to a 
problem that many of us have been pointing to for all too long.
    Nevertheless, the situation provides us with a unique 
opportunity to improve border security that we cannot afford to 
let pass. Make no mistake, this will not be the last attempt 
made by those outside our borders intent on carrying out acts 
of terrorism against the United States. It is vitally important 
that we continue to authorize and appropriate funds for 
additional border personnel, for which there is strong 
bipartisan support, not only for the southwest border but for 
our northern border as well. It is equally important that the 
administration follow through and actually hire the additional 
personnel, which the administration failed to do last year.
    As my colleagues from northern border States can attest, 
our calls for additional personnel are often answered with an 
explanation of the seemingly never-ending need for more support 
at our southern border. To make matters worse, not only is the 
northern border unable to get much-needed new personnel, but 
the relatively few agents we do have are often detailed to the 
Southwest for extended periods, further exacerbating the 
understaffing problem.
    As a consequence, you can imagine my shock at reading an 
article in the January 4, 2000, edition of the Wall Street 
Journal detailing the sheer boredom some Border Patrol agents 
in the San Diego area are suffering. According to this article, 
efforts to reduce illegal immigration along the U.S.-Mexico 
border have been so successful that Border Patrol agents are 
lacking sufficient work to keep them busy.
    In an effort to alleviate this boredom, agents are engaged 
in one of two alternative activities. They are spending time 
during working days doing community service--one agent profiled 
in the article spends 4 days a week at a local elementary 
school helping students learn to read--or they are leaving the 
Border Patrol altogether in search of more challenging 
professional opportunities.
    Now, I have no quarrel with the apparent success of the INS 
in its efforts to curb illegal immigration along the southern 
border. Nor do I have any complaint with Border Patrol agents 
performing community service, though I question the amount they 
should be doing on the taxpayers' time.
    What I do have a problem with is the fact that 
understaffing at our northern border is jeopardizing 
thesecurity of our Nation, not to mention our border personnel 
themselves, while in at least some sectors of the southern border there 
are so many agents that there is not enough work to keep them all busy.
    I would like to take a moment to address the question of 
what impact, if any, an automated entry/exit control system 
would have made in the Port Angeles incident. I have joined 
with a number of my colleagues, most notably the chairman, in 
seeking a repeal of section 110 of the Illegal Immigration 
Reform and Immigrant Responsibility Act of 1996. We believe 
that while the intent of section 110 is commendable, the sheer 
volume of traffic crossing the northern border every day makes 
such verification unfeasible.
    Many communities that depend on the steady commerce between 
Canada and the United States would be devastated by the long 
border delays that would be the inevitable result if section 
110 were to be implemented. No doubt, proponents of section 110 
will use the apprehension of Ahmed Ressam and his alleged 
associates as an argument for retention of section 110. I 
believe this would be unfortunate, as the existence of an 
automated entry/exit control would not have kept Ressam out. It 
was by reason of the experience and instinct of Inspector Dean 
that Ressam was detained and ultimately apprehended. What we 
need is more Inspector Deans, not more congestion.
    With the chairman's indulgence, I make one final comment 
about Customs border staffing, and that relates to the current 
House-Senate conference on the Customs Authorization Act. There 
is a difference between the House and Senate versions of this 
bill on the pay of Customs inspectors and canine enforcement 
officers.
    The House bill contains a provision that would reduce the 
pay of those public servants at the very time we are 
authorizing an increase in personnel on border staffing. 
Customs agents in Washington State could see a reduction in 
income of almost $5,000 a year under the House provision. I 
have previously stated my opposition to that House provision 
and I restate it today as this committee examines this very 
important issue.
    I thank you for holding the hearing. I am delighted to have 
the opportunity to meet Inspector Dean. I am sorry to report I 
have a markup at exactly this time in the Energy Committee of 
bills in that committee, and so if the chairman will indulge 
me, I will take my leave.
    Senator Abraham. Senator Gorton, thank you for being here.
    [The prepared statement of Senator Gorton follows:]

               Prepared Statement of Senator Slade Gorton

    Mr. Chairman, I would like to begin by thanking the Subcommittee 
for holding this hearing, and for allowing me to participate. I can 
think of few issues more important than ensuring the security of our 
borders.
    By now, everyone here is aware of the alarming incident that 
occurred last December, in which a man attempting to cross the border 
into the United States via ferry at Port Angeles, Washington was found 
to be carrying significant amounts of bomb-making materials in the 
trunk of his rented car. We cannot say for sure exactly what that man, 
Ahmed Ressam, intended to do with those clandestine materials, though 
it is becoming clear that he is part of a much larger conspiracy of 
international terrorism. What we do know for sure is that through the 
professional expertise of the woman who will be speaking with you 
today, disaster was very likely averted.
    I don't think it would be an overstatement to say that our nation 
truly owes a debt of gratitude to Inspector Diana Dean, and the other 
Customs Service employees in Port Angeles, for apprehending Mr. Ressam 
before he and his conspirators could perpetrate whatever acts of terror 
they had planned against America.
    For a number of years I have been expressing my concern with the 
insufficient personnel levels at the Northern border, as have many of 
my colleagues in the Senate, including some members of this Committee. 
It is unfortunate that it has taken an incident as alarming as the 
developing case involving Ahmed Ressam to draw attention to a problem 
that many of us have been pointing to for so long. Nevertheless, the 
situation provides us with a unique opportunity to improve border 
security that we cannot afford to let pass. Make no mistake about it, 
this will not be the last attempt made by those outside our borders 
intent on carrying out acts of terrorism against the United States.
    It is vitally important that we continue to authorize and 
appropriate funds for additional border personnel, for which there is 
strong bipartisan support, not only for the Southwest border, but for 
the Northern border as well. Equally important is that the 
Administration follow through and actually hire the additional 
personnel, which the current Administration failed to do last year.
    As my colleagues from Northern border states can attest, our calls 
for additional personnel are often answered with an explanation of the 
seemingly never-ending need for more support at the Southern border. To 
make matters worse, not only is the Northern border unable to get much-
needed new personnel, but the relatively few agents we do have are 
often detailed to the Southwest for extended periods, further 
exacerbating the problem with under-staffing. Therefore, you can 
imagine my shock upon reading an article in the January 4, 2000 edition 
of the Wall Street Journal detailing the sheer boredom some Border 
Patrol agents in the San Diego area are suffering. According to this 
article, efforts to reduce illegal immigration along the U.S.-Mexico 
border have been so successful Border Patrol agents are lacking 
sufficient work to keep them busy. In an effort to alleviate this 
boredom, agents are doing one of two things. They are spending time 
during working hours doing community service--one agent profiled in the 
article spends four days a week at a local elementary school helping 
students learn to read--or they are leaving the Border Patrol 
altogether in search of more challenging professional opportunities. 
Now, I certainly have no quarrel with the apparent success of the INS 
in its efforts to curb illegal immigration along the Southern Border. 
Nor do I have any complaint with Border Patrol agents performing 
community service--though I question whether they should be doing it on 
the taxpayers' time. What I do have a problem with is the fact that 
under-staffing at our Northern border is jeopardizing the security of 
our nation, not to mention border personnel, while in at least some 
sectors of the Southern border, there are so many agents that there is 
not enough work to keep all of them busy.
    I would like to take a moment to address the question of what 
impact, if any, an automated entry-exit control system would have made 
in the Port Angeles incident. I have joined with a number of my 
colleagues in seeking a repeal of Section 110 of the Illegal 
Immigration Reform and Immigrant Responsibilities Act of 1996. It is 
our belief that, while the intent of Section 110 is commendable, the 
sheer volume of traffic crossing the Northern border every day makes 
such verification unfeasible. Many communities that depend on the 
steady commerce between Canada and the U.S. would be devastated by the 
long border delays that would be the inevitable result if Section 110 
were to be implemented. No doubt, proponents of Section 110 will use 
the apprehension of Ahmed Ressam and his alleged associates as an 
argument for retention of Section 110. I believe this would be 
unfortunate, as the existence of an automated entry-exit control would 
not have kept Ressam out. It was through the experience and instinct of 
Inspector Dean that Ressam was detained and, ultimately, apprehended. 
What we need is more Inspector Dean's, not more congestion.
    With the Chairman's indulgence, I would like to make one final 
comment regarding Customs border staffing, and that relates to the 
current House-Senate Conference on the Customs Authorization Act. There 
is a difference between the House and Senate versions of this bill 
pertaining to the pay of Customs Inspectors and Canine Enforcement 
Officers. The House bill contains a provision that would reduce the pay 
of these public servants at the very same time we are authorizing an 
increase in personnel and border staffing. Customs agents in Washington 
state could see a reduction in income of almost $5000 annually under 
the House provision. I have previously stated my opposition to the 
House provision, and I restate it today as this Committee examines this 
very important issue.
    Let me again thank the Subcommittee for holding this hearing. I 
look forward to working with my colleagues to ensure we take the steps 
necessary to enhance the integrity of our borders.

[GRAPHIC] [TIFF OMITTED] T2523A.001

    Senator Abraham. We will turn to Senator Murray, and we 
thank you for being here before and waiting this long. I know 
you have other assignments, but we appreciate your being here 
to introduce Inspector Dean.
    Senator Murray.

 STATEMENT OF HON. PATTY MURRAY, A U.S. SENATOR FROM THE STATE 
                         OF WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman and 
Senator Feinstein, for holding this extremely important hearing 
today, and thank you both for your statements that I concur 
with.
    It is really my pleasure today to introduce to you my 
constituent and a real hero, Diana Dean. Diana has been an 
inspector for the Customs Service for 19 years. She moved from 
Hawaii to Seattle--that was a good choice--in the mid-1980's. 
In 1996, she became a full-time Customs inspector and was 
stationed at Port Angeles, WA.
    We really all were very fortunate that she was stationed in 
Port Angeles, and last month her experience and her training 
caused her to question an individual who was getting off the 
ferry entering my home State from British Columbia. The person 
she stopped, Ahmed Ressam, was carrying 100 pounds of bomb-
making supplies. For her service, she received an Exceptional 
Service Award, along with Inspectors Carmon Clem, Mike Chapman, 
and Mark Johnson, who assisted her.
    Let me just add that I feel like I have a good idea of what 
Diana's job is like and she has a good idea of what my job is 
like because shortly after this incident I traveled to Port 
Angeles and had a chance to sit down with Diana and other 
inspectors and talk about what they were facing everyday. 
Shortly after that, she flew back with me to Washington, DC, on 
that long flight, got here, and we had a snow storm. She flew 
back home and had to fly here today. So she understands my job 
now and I understand hers.
    I am delighted that she is with us today, and I want to 
also recognize her daughter, Adrianna, who is with us and has 
waited patiently and flown out here twice as well. She must be 
extremely proud of Diana as well.
    Let me tell you when I was in Port Angeles, I saw that the 
northern border really does need our attention. I also visited 
Blaine and talked with the Customs and border agents there as 
well. And, Mr. Chairman, your statement is exactly right, and 
you and I both know, being on the northern border, that we have 
$1 million a day of economic activity going back and forth 
across our border. It is important that we allow it to move 
safely, quickly, and efficiently.
    But we also want to make sure that we have agents like 
Inspector Dean who are there, who are trained, who are the best 
people so that those people like Ressam are caught at the 
border and detained, and we have our work cut out for us.
    So I am delighted that you are having this hearing, and I 
am proud to be here with Diana today. I want her to know that 
everyone at home is extremely proud of her and her colleagues 
and the work they do everyday. I have never before the last 
month had people come up to me and say, will you tell the 
Customs inspectors thank you for the job they do.
    Diana made us all proud and I am pleased to have her before 
the subcommittee. It is my honor to present to you Inspector 
Diana Dean.
    Senator Abraham. Senator Murray, thank you very much. We 
appreciate it.
    Before we turn to Inspector Dean to make her comments, let 
me just also mention the panel which we have here includes also 
Mr. Charles ``Chuck'' Winwood, who is the Assistant 
Commissioner of Field Operations with the U.S. Customs Service. 
We look forward to hearing from you next.
    And then finally we have Mr. Michael Pearson, who is the 
Executive Associate Commissioner for Field Operations with the 
Immigration and Naturalization Service, and I believe from 
Traverse City, MI, somewhere in your past. We are proud of that 
and welcome you both here.
    We will start with Inspector Dean.
    Senator Feinstein. Mr. Chairman, may I enter a statement 
into the record, please?
    Senator Abraham. Sure, we will be glad to do that and make 
that part of the record. If other members want to submit 
statements, of course, we will accept those as well.
    [The prepared statement of Senator Leahy follows:]

             Prepared Statement of Senator Patrick J. Leahy

    First, I would like to thank Senators Abraham and Kennedy for 
holding this hearing on an issue that is so important to the residents 
of my state of Vermont. I would also like to thank the witnesses who 
have come here today from the Customs Service, the Immigration and 
Naturalization Service, and the National Border Patrol Council, all of 
which play such a crucial role in maintaining the security of our 
nation.
    This hearing is particularly appropriate at this time, considering 
the significant public attention garnered by the border arrests that 
occurred over the holiday season in Vermont and Washington state. Last 
December 19, border guards in Beecher Falls, Vermont, arrested a 
Canadian woman, Lucia Garofalo, who was bringing an illegal Algerian 
immigrant across the border. She has been charged with seven felony 
counts of alien smuggling and misuses of identification documents.
    Ms. Garofalo's arrest followed on the heels of the arrest of Ahmed 
Ressam, an Algerian who was apprehended in Washington state while 
trying to enter the United States from Canada with 100 pounds of bomb-
making supplies. Federal prosecutors in Burlington, Vermont, are 
investigating potential links between Ms. Garofalo and Mr. Ressam. I am 
heartened by the outstanding work of law enforcement officials in 
Vermont and throughout the United States in this matter--their 
excellent service allowed our country to avert what could have been a 
terrible tragedy. I am also appreciative of the assistance that Canada 
has provided to assist American investigators.
    I strongly support providing additional resources--in the form of 
additional officers, support personnel, and equipment--to assist 
federal and local law enforcement officers who patrol our northern 
border. Our southern border has received the vast portion of our 
attention over the last decade, but the events of the last two months 
demonstrate that we need to be more attentive to the concerns raised by 
our border with Canada. That is why I am a cosponsor of S. 745, the 
Border Improvement and Immigration Act, which would provide additional 
resources to the INS, Border Patrol, and Customs Service.
    Although recent events have confirmed the need to ensure that our 
northern border is effectively patrolled, it is important that our 
reaction to these events be a measured one. It is worth noting that 
although December yielded an important and high-profile case along our 
northern border, it was in some ways an ordinary month for the Border 
Patrol. As the Burlington (Vt.) Free Press reported last month, the 
number of illegal and criminal aliens apprehended along our border in 
Canada during that month was typical. Despite this fact, some have 
recently renewed their calls to implement draconian border inspection 
procedures that would cripple traffic and trade at our borders with 
Canada. Such a step would be extremely harmful to the entire American 
economy, and especially to our northern states. It would also be 
disproportionate to the threats we face. We should not lose sight of 
the fact that our law enforcement officers were able to stop the 
alleged terrorists who apparently sought to harm our citizens. If our 
officers need additional help, we should provide it. That, and not 
closing our borders, is the appropriate way to battle this threat.

    Senator Abraham. Inspector Dean, we have all come here 
today, in part, to hear from you and we want to, on behalf of 
the subcommittee, thank you for your service. Obviously, when 
we hold hearings here, we often focus in on problems and we too 
often, as I have said in this role before, act as if nothing is 
going right. That is sort of the nature of congressional 
hearings; they tend to oversee problems.
    Today, it is good to have a hearing where we are going to 
be talking about something that did go right, where we, in 
fact, were successful, thanks to your efforts in apprehending a 
terrorist, or somebody who at least, we believe, was planning 
to engage in those kinds of activities.
    So we welcome you here today and we will turn to you at 
this time.

PANEL CONSISTING OF DIANA DEAN, CUSTOMS INSPECTOR, U.S. CUSTOMS 
 SERVICE, PORT ANGELES, WA; CHARLES W. WINWOOD, ACTING DEPUTY 
COMMISSIONER, U.S. CUSTOMS SERVICE, WASHINGTON, DC; AND MICHAEL 
    A. PEARSON, EXECUTIVE ASSISTANT COMMISSIONER FOR FIELD 
OPERATIONS, IMMIGRATION AND NATURALIZATION SERVICE, WASHINGTON, 
                               DC

                    STATEMENT OF DIANA DEAN

    Ms. Dean. Thank you. Mr. Chairman and members of the 
subcommittee, thank you for inviting me here to testify today. 
My name is Diana Dean. I am a U.S. Customs inspector with 19 
years' experience. I am currently assigned to Port Angeles, WA, 
and have been there since 1991. Prior to my assignment at Port 
Angeles, I worked as an inspector in both Seattle and Hawaii.
    On December 14, 1999, at 6:00 p.m., Ahmed Ressam attempted 
to enter the United States from Victoria, British Columbia, 
Canada, in a rented vehicle aboard the ferry motor vessel Coho 
at the Port Angeles, WA, port of entry. As the primary 
interviewing officer, I noticed during routine questioning that 
Ressam was acting in a nervous and strange manner while 
answering routine questions. I decided to perform a more 
thorough secondary examination.
    Ressam was told to exit the vehicle he was driving in order 
to open the trunk for examination. After several requests, 
Ressam reluctantly exited the vehicle and opened the trunk. 
Preliminary examination by additional inspectors present and 
myself revealed that the vehicle's spare tire compartment 
contained several bags of an unknown substance.
    Based upon this discovery, an immediate pat-down of Ressam 
was conducted, during which Ressam managed to slip out of his 
jacket and flee on foot. The other inspectors present gave 
chase in a foot chase that ensued over a five-block area, 
resulting in Ressam's capture. During the foot chase, Ressam 
attempted to strong-arm the driver of a vehicle passing by. 
After a brief scuffle, the subject was cuffed and escorted back 
to the port.
    Further examination of Ressam's vehicle resulted in the 
discovery of 4 timing devices, a total of 118 pounds of urea 
crystals, 14 pounds of sulfate powder, and 48 ounces of 
nitroglycerin. The fact is U.S. Customs inspectors do things 
like this every hour of the day, every day of the week, and 
every week of the year at all 301 ports of entry in our Nation. 
Sometimes, we interdict dangerous drugs, sometimes guns, 
contaminated food, defective parts. The list goes on.
    I want to again thank the committee for the opportunity to 
be here today.
    Senator Abraham. Inspector Dean, thank you.
    Mr. Winwood, thank you for being here as well. We will turn 
to you at this time.

                STATEMENT OF CHARLES W. WINWOOD

    Mr. Winwood. Thank you, Chairman Abraham and members of the 
subcommittee, Senator Feinstein, for this opportunity to 
testify.
    Inspector Dean's words are a far better testament to the 
dedication shown by the men and women of the Customs Service in 
defending our Nation's borders than I could ever offer today. I 
would simply like to take this opportunity to sketch a broader 
picture of our mission and the challenges and the needs that we 
face in the future.
    We are extremely proud of the professionalism displayed by 
our inspectors at Port Angeles. The prevention of terrorist 
threats at our borders is a cornerstone of Customs 
responsibilities. Yet, it is only one part, albeit a vitally 
important one, of a vast mission that ranges from processing 
nearly $1 trillion in trade a year to seizing illegal drugs 
hidden amongst the highest volume of arriving passengers and 
conveyances in the world.
    We also combat money laundering, forced child labor, child 
pornography, and criminal exploitation of the Internet. We 
enforce more than 600 laws for a variety of Federal agencies at 
the Nation's borders, in addition to our own. On a typical day, 
Customs officers process 1.3 million passengers and nearly 
350,000 vehicles at ports and border crossings. They seize 
nearly 4,000 pounds of narcotics and over $1 million in ill-
gotten cash.
    Customs enforcement actions protect our domestic industries 
from unfair foreign competition. They keep tainted and spoiled 
products from making their way to consumers, defend against 
intellectual property rights violations, and deter the 
corrosive effects of economic fraud. And as you heard today, 
they help safeguard America from the threat of terrorist 
attack. It is a difficult job for the Customs Service to sift 
all of these threats from the vast majority of legitimate trade 
and travelers passing through our borders.
    In response to the threat raised by the arrest at Port 
Angeles last December, Commissioner Raymond Kelly ordered the 
Customs Service into an immediate heightened state of alert. 
Our 301 ports and border locations were instructed to provide 
prompt staffing assessments to ensure our sites were adequately 
manned. Where shortfalls existed, inspectors and special agents 
were relocated. Where extra shifts were needed, overtime was 
added. Where gaps still remained, other officers were put back 
on the front line.
    Our special agents were detailed to interagency 
counterterrorism task forces nationwide to provide 
investigative expertise and coordination of real-time 
intelligence and dissemination to our ports and border 
personnel. In all, our measures added to an equivalent of over 
900 extra inspectors along our frontiers during the busy 
holidays.
    I cannot stress enough the commitment of the men and women 
of Customs in making this possible. Our people made 
extraordinary sacrifices, worked longer, harder hours under 
heavy volumes of travel in extreme weather conditions, using 
time they would otherwise have spent with family and friends at 
home. Their efforts were deeply appreciated. Despite longer 
lines at border crossings, greater scrutiny, and more intense 
questioning, we received the strong support of the American 
public.
    Our efforts did not end there. On December 30, Commissioner 
Kelly implemented a two-officer minimum staffing requirement 
for all northern and southwest border crossings 24 hours a day, 
7 days a week. While this may seem like a small number at first 
glance, let me make it clear that many of our border crossings, 
especially along our northern border, are situated in extremely 
remote locations where travelers are few and hours of operation 
are limited.
    A number of these locations are served by remote video 
inspection systems, with which frequent travelers can pass 
through border areas quickly without time-consuming 
inspections. While these sites are often the least traveled, 
they are also the most vulnerable, and to staff them around the 
clock, as the Commissioner ordered, was truly a dramatic step 
and a necessary one.
    On January 11, the Commissioner authorized a scaled-back 
state of alert. This was done in consultation with other 
Federal inspection agencies and our intelligence community. 
Ports and border crossings were returned to their regular 
operating hours. Staff detailed temporarily to undermanned 
checkpoints returned home. The only exceptions were the one-man 
ports and the video inspection locations.
    One important result of these operations has been the 
publication of a new alert plan, again authorized by 
Commissioner Kelly, for any future threats of this nature. The 
plan outlines four alert levels, each of which carries 
sufficient detail to ensure appropriate response to the threat 
at hand.
    We also affirmed once again the indispensable role of 
cooperation with our partner border enforcement agencies, 
particularly the INS and the Border Patrol. I say ``once 
again'' because since September 1998, our agencies have engaged 
in an unprecedented project known as the Border Coordination 
Initiative, or BCI.
    At its heart, BCI involves open lines of communication, 
joint operations, and shared management strategies. In the 
year-and-a-half that it has been in place, BCI has yielded 
record levels of drug seizures and reduced processing times for 
travelers at our ports of entry. It is an outstanding example 
of what can happen when Government agencies work together to 
improve service to the American public. This spirit of 
cooperation carried over to our work to secure U.S. borders 
after the Port Angeles incident. Immediately following the 
arrest, Customs and INS exchanged operational plans for 24-
hour-a-day staffing at all of our facilities.
    I must also acknowledge our outstanding working 
relationship with Canadian authorities. After the seizure and 
arrest, our usual high level of interaction with the Royal 
Canadian Mounted Police and Canadian Customs became even more 
intense. We exchanged data on subjects who may have been 
involved in suspicious activity and made an extra effort to 
share our findings.
    A special U.S. embassy law enforcement team in Ottawa, 
comprised of Customs, the FBI, and representatives of the 
intelligence community in Ottawa worked tirelessly to support 
our inspectors and agents stationed at land borders and pre-
clearance stations at the seven major Canadian airports.
    Mr. Chairman, I believe that when America was faced with a 
terrorist threat last December, U.S. Customs and its fellow law 
enforcement agencies along the border stepped up to the 
challenge. I like to think in some way the peacefulholiday 
celebrations that ensued were at least partly the result of our 
efforts. That said, we are under no illusion about the possibility of 
another attempt occurring again at some other place, at some other 
time.
    We have arrived at an important crossroads. A spiraling 
volume of trade has put immense pressure on our resources. At 
the same time, an unrelenting illegal drug trade continues its 
daily assault on our front lines. Add to this now the specter 
of international terrorism doorstep. Sifting the threats will 
become all the more difficult, all the more daunting. How we 
respond to these challenges now will impact greatly on our 
mission to facilitate and enforce in years to come.
    Fortunately, the Customs Service has taken several 
important steps to make sure we continue to deliver for the 
American people. We have developed and are in the process of 
refining a resource allocation model, a tool developed to 
provide an agency-wide assessment of our most critical staffing 
needs and ideas on how to apply our resources. It is the first 
such model of its kind in the Federal Government to be deployed 
across the board, throughout every department and location.
    Mr. Chairman, these requirements I have with me today are 
the requirements and documents for the resource allocation 
model which we would be happy to walk through at a later date 
with you. I would stress again that this is simply a tool for 
management and decisionmaking and not the final determinant of 
how we deploy our personnel.
    Lastly, Customs is leading a critical study of border 
infrastructure needs throughout the country, in consultation 
with the General Services Administration and other Federal 
inspection agencies. This project, mandated by Congress, is 
intended to assess every physical aspect of port operations, 
from facilities and equipment to staffing and technology. 
Security and training needs will also be considered. We hope 
for the support of Congress on this and other important 
initiatives designed to prepare U.S. Customs for the 
challenging era of trade and enforcement ahead.
    In closing, I again want to thank you, Mr. Chairman, and 
the members of this subcommittee for the opportunity to testify 
and to spotlight the dedicated professionals of the Customs 
Service.
    Senator Abraham. Thank you, Mr. Winwood.
    [The prepared statement of Mr. Winwood follows:]

                Prepared Statement of Charles W. Winwood

    Chairman Abraham and members of the Subcommittee. Thank you for 
this opportunity to testify. Inspector Dean's words are a far better 
testament to the dedication shown by the men and women of the Customs 
Service in defending our nation's borders than I could ever offer 
today. I would simply like to take this opportunity to sketch a broader 
picture of the mission of the U.S. Customs Service, our challenges, and 
our needs in the years ahead.
    To be sure, we are extremely proud of the professionalism displayed 
by our Inspectors at Port Angeles. The prevention of terrorist threats 
at our borders is a cornerstone of Customs' responsibilities. Yet it is 
only one part--albeit a vitally important one--of a vast mission that 
ranges from processing nearly 1 trillion dollars in trade a year to 
seizing illegal drugs hidden amongst the highest volume of arriving 
passengers and conveyances in the world.
    We also combat money-laundering; forced child labor; child 
pornography; and criminal exploitation of the Internet. We enforce more 
than 600 laws for a variety of federal agencies at the nation's 
borders, in addition to our own.
    On a typical day, Customs officers process 1.3 million passengers 
and nearly 350,000 vehicles at ports and border crossings around the 
country. They seize nearly 4,000 pounds of narcotics and over a million 
dollars in ill-gotten cash.
    Customs enforcement actions protect domestic industries from unfair 
foreign competition. They keep tainted and spoiled products from making 
their way to consumers. They defend intellectual property rights and 
deter the corrosive effects of economic fraud. And, as you heard today, 
they safeguard Americans from the threat of terrorist attack.
    It is the difficult job of the Customs Service to sift all of these 
threats from the vast majority of legitimate trade and travelers 
passing through our borders. And it is my job as the Acting Deputy 
Commissioner to help make certain we do this without imposing any undue 
burden upon international business and the travelling public we serve.
    In response to the threat raised by the arrest at Port Angeles last 
December, Commissioner Raymond Kelly ordered the Customs Service into 
an immediate heightened state of alert. Directors in the Office of 
Field Operations, who manage our 301 ports and border locations, were 
instructed to provide prompt staffing assessments to ensure our sites 
were adequately manned.
    Where shortfalls existed, inspectors and special agents were 
relocated. Where extra shifts were needed, overtime was added. Where 
gaps still remained, officers whose normal duties did not include basic 
inspection work found themselves on temporary detail, back out on the 
front line, interacting with travelers. Our special agents were 
detailed to interagency counter-terrorism task forces nationwide, to 
provide investigative expertise and coordination of real-time 
intelligence dissemination to our port and border personnel.
    In all, our measures added up to the equivalent of over 900 extra 
inspectors along our frontiers for the busy holiday season. I cannot 
stress enough the commitment of the men and women of Customs in making 
this possible. Our people made extraordinary sacrifices, worked longer, 
harder hours, under heavy volumes of travel, in extreme weather 
conditions, using time they otherwise would have spent with family and 
friends at home.
    Their efforts were deeply appreciated, not just by Customs 
management, but by the American people. Despite longer lines at border 
crossings, greater scrutiny, and more intensive questioning, we 
received the strong support of the travelling public. We clearly sensed 
an awareness among those we processed of the threat at hand, and 
Customs role in making the holiday season as safe and secure as 
possible.
    Our efforts did not end there. On December 30, Commissioner Kelly 
implemented a 2 officer minimum staffing requirement for all northern 
and southwest border crossings, 24 hours a day, 7 days a week. While 
this may seem like a small number at first glance, let me make it clear 
that many of our border crossings, especially those along our northern 
border, are situated in extremely remote locations, where travelers are 
few and hours of operation are limited. A number of these locations are 
served by remote video inspection systems, with which frequent 
travelers can pass through border areas quickly without time consuming 
inspections. While these sites are often the least traveled, they are 
also the most vulnerable. To staff them around the clock, as the 
Commissioner ordered, was truly a dramatic step, and a necessary one.
    On January 11, the Commissioner authorized a scaled back state of 
alert. This was done in consultation with other federal inspection 
agencies and our intelligence community. Ports and border crossings 
were returned to their regular operating hours. Staff detailed 
temporarily to undermanned checkpoints were allowed to return home. The 
only exceptions to this order were ten northern border posts and all 
remote video inspection system sites, which remain subject to the 
staffing requirements put into effect immediately after the Port 
Angeles seizure.
    That is the status at which we remain today. One important result 
of these operations has been the articulation of a new alert plan, 
again authorized by Commissioner Kelly, for any future threats of this 
nature. The plan outlines four alert levels, each of which carries 
sufficient detail to ensure appropriate response to the threat at hand.
    We also affirmed once again the indispensable role of cooperation 
with our partner border enforcement agencies, particularly the INS and 
the Border Patrol. I say ``once again'' because since September 1998 
our agencies have engaged in an unprecedented project known as the 
Border Coordination Initiative, or BCI, along our Southwest Border. At 
its heart, BCI involves open lines of communication, joint operations, 
and shared management strategies. In the year and a half that it has 
been in place, BCI has yielded record levels of drug seizures and 
reduced processing times for travelers at our ports of entry. It is an 
outstanding example of what can happen when government agencies work 
together to improve service to the American public.
    This spirit of cooperation carried over to our work to secure U.S. 
borders after the Port Angeles incident. Immediately following the 
arrest, Customs and INS exchanged operational plans for 24-hour a day 
staffing at all our facilities. Though implemented at the national 
level, it was thanks to the skill and dedication of our employees in 
the field that these plans came together. Our people worked together 
diligently to ensure that the two officer minimum staffing requirement 
was met at every location in the country.
    I must also acknowledge our outstanding working relationship with 
Canadian authorities. After the seizure and arrest, our usual high 
level of interaction with the Royal Canadian Mounted Police and Canada 
Customs became even more intensive. We exchanged mountains of data on 
subjects who may have been involved in suspicious activity and made an 
extra effort to share our findings. A special U.S. Embassy law 
enforcement team in Ottawa comprised of Customs, the FBI and 
representatives of the intelligence community in Ottawa worked 
tirelessly to support our Inspectors and Special Agents stationed at 
land borders, air preclearance stations, and seven major Canadian 
airports.
    Mr. Chairman, I believe that when America was faced with a 
terrorist threat last December, U.S. Customs and its fellow law 
enforcement agencies along the border stepped up to the challenge. I 
like to think that in some way, the peaceful holiday celebrations that 
ensued were at least partly the result of our efforts. That said, we 
are under no illusions about the possibility of another attempt 
occurring again at some other place, some other time, along the 
thousands of miles of border that we defend.
    We have arrived at an important crossroads. A spiraling volume of 
trade has put immense pressure on our resources, at the same time an 
unrelenting illegal drug trade continues its daily assault on our front 
lines. Add to this now the specter of international terrorism at our 
doorstep. Sifting the threats will become all the more difficult--
finding that deadly needle in the haystack all the more daunting.
    How we respond to these challenges now will impact greatly on our 
mission to facilitate and enforce in years to come. Fortunately, the 
Customs Service has taken several important steps to make sure we 
continue to deliver for the American people. We have developed and are 
in the process of refining a Resource Allocation Model, a tool 
developed to provide an agency-wide assessment of our most critical 
staffing needs and ideas on how to apply our resources optimally. It is 
the first such model of its kind in the federal government to be 
deployed across the board, throughout every department and location.
    At your request, Mr. Chairman, I am submitting a summary of the 
model. These are the requirements and documentation for the Resource 
Allocation Model which we would be happy to walk you through at a later 
date. I would stress again that this is simply a tool for management in 
decision-making, and not the final determinant of how we deploy our 
personnel.
    Lastly, Customs is leading a critical study of Border 
Infrastructure needs throughout the country in consultation with the 
General Services Administration and other federal inspection agencies. 
This project, mandated by the Congress, is intended to assess every 
physical aspect of port operations, from facilities and equipment to 
staffing and technology. Security and training needs will also be 
considered.
    We hope for the support of the Congress on this and other important 
initiatives designed to prepare the U.S. Customs for the challenging 
era of trade and enforcement ahead. In closing, I again want to thank 
you, Mr. Chairman, and the members of this subcommittee for the 
opportunity to testify and spotlight the dedicated professionals of the 
Customs Service.

    Senator Abraham. We will turn now to Mr. Pearson. Thanks 
for being with us today.

                STATEMENT OF MICHAEL A. PEARSON

    Mr. Pearson. Thank you, sir. Good afternoon, Mr. Chairman. 
I too appreciate this opportunity to appear before you today to 
share with you the crucial role that the Immigration and 
Naturalization Service plays in controlling our Nation's 
borders, including addressing terrorist threats.
    I would like to begin by assuring you that the INS' 
commitment to border security remains unwavering. As you know, 
the INS is the agency responsible for controlling the entry of 
aliens into the United States and detaining and removing those 
who have entered contrary to our laws, including aliens 
involved in terrorism.
    We work diligently with our partners from other local, 
State, Federal, and international law enforcement, and 
intelligence agencies to accomplish this goal, which I will 
highlight in my testimony today. With the recent failed 
attempts at entry by suspected terrorists along the northern 
border of the United States, it has never been more apparent 
that the INS and other law enforcement agencies must continue 
to work together as a close-knit team.
    International terrorists who seek to enter the United 
States must do so either by applying for admission at a port of 
entry or by attempting illegal entry. The INS role in 
counterterrorism is strongly represented by our active 
participation in several interagency task forces. In today's 
world, INS efforts to ensure the security of the United States 
neither begins nor ends at our immediate borders.
    INS has adopted a strategy called Global Reach that 
addresses this overall threat. INS officers are stationed 
worldwide, working with local government authorities to prevent 
illegal immigration and alien smuggling in source countries 
abroad. Currently, the INS has over 5,000 immigration 
inspectors at our ports of entry nationwide, and over 8,000 
Border Patrol agents patrolling our borders between the ports 
of entry.
    Our strategic plan for border enforcement, announced in 
1994, is to first control the most heavily-trafficked corridors 
along the southwest border. The INS greatly appreciates the 
congressional support for this strategy through its continued 
appropriations for the Border Patrol.
    In order to enforce our laws more effectively and secure 
our borders, immigration inspectors have instant access to a 
broad range of information through the use of several 
informational databases. This information is used to identify 
and process individuals who may be inadmissible or removal from 
the United States or subject to other enforcement actions by 
another agency.
    The INS is working with the Customs Service and other 
Federal agencies to identify how these systems are best applied 
to border security and facilitation uses. Our close cooperation 
with our Federal partners, particularly Customs, is embodied by 
the Border Coordination Initiative, as was outlined by Mr. 
Winwood.
    In achieving our mission on the northern border, we work 
closely with the Canadian government. Canada and the United 
States have a partnership that works. We share the longest 
undefended border in the world. The INS staffs 105 ports of 
entry, 8 Border Patrol sectors, and 44 Border Patrol stations 
along the nearly 4,000-mile border with Canada, not including 
Alaska.
    The INS, with the cooperation of Customs, Citizenship and 
Immigration Canada, Revenue Canada, and the Royal Canadian 
Mounted Police, is keeping a close watch on our shared border. 
Canada is a close ally in the fight against illegal 
immigration. In combatting illegal immigration, and terrorism 
in particular, the challenge for United States and Canadian 
officials is the rapid and timely exchange of information on 
such individuals who pose a common threat. Our officers at the 
border, in the interior, and overseas work closely together and 
continuously to prevent illegal immigration to both countries.
    In closing, I would like to emphasize that inherent in our 
border enforcement strategy is the flexibility to respond to 
emerging conditions and changing tactics. I look forward to 
working with the subcommittee to ensure that INS can continue 
to meet today's demands and tomorrow's challenges.
    Thank you, Mr. Chairman, and I would be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Pearson follows:]

                Prepared Statement of Michael A. Pearson

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. I appreciate this opportunity to share with you the 
crucial role that the Immigration and Naturalization Service (INS) 
plays in protecting the United States (U.S.) from terrorist threats. I 
would like to begin by assuring you that the INS commitment to border 
security remains unwaivering.
    As you know, the INS is the agency responsible for controlling the 
entry of aliens into the U.S., and detaining and removing aliens who 
have entered contrary to our laws, including aliens involved in 
terrorism. This is accomplished at over 300 air, land, and sea Ports-
of-Entry (POE's) by Immigration Inspectors and between the ports by the 
Border Patrol. The INS also prevents the entry of inadmissible aliens 
at our 14 overseas preflight inspection sites and through international 
enforcement operations.
    We work diligently with our partners from other local, state, 
Federal, and international law enforcement and intelligence agencies to 
identify individuals who may pose a threat to the U.S. and prevent 
their entry or, detain and remove them. With the recent failed attempts 
at entry by suspected terrorists along the northern border of the U.S., 
it has never been more apparent that the INS and other law enforcement 
agencies must continue to work together as a close-knit team.
    I will describe our border management strategies, our close 
cooperation with Canada, and the INS response to the recent northern 
border terrorist threats.

                       BORDER MANAGEMENT STRATEGY

    International terrorists who seek to enter the U.S. must do so by 
either applying for admission at a POE or by attempting illegal entry. 
Consequently, Immigration Inspectors and Border Patrol Agents form the 
Nation's first line of defense on the border against international 
terrorism. The INS' role in counter-terrorism is also strongly 
represented by our active participation in the Federal Bureau of 
Investigations' (FBI) International Terrorism Operations Section, the 
Central Intelligence Agency's Counter Terrorism Center, and on 16 Joint 
Terrorism Task Forces (JTTF).
    In today's world, the INS' efforts to ensure the security of the 
U.S. neither begins nor ends at our immediate borders. Threats from 
terrorists, alien smugglers, and organized criminals are serious 
international problems affecting democratic societies everywhere. INS 
has adopted a strategy to better address this global threat; we call 
the approach Global Reach. This approach supports the Administration's 
International Crime Control Strategy. It focuses on addressing the 
threat at all points on the globe, with INS officers deployed at source 
and transit locations working with local government authorities, 
training international air carriers to recognize fraudulent documents, 
gathering information to better understand and dismantle smuggling 
operations, and interdicting undocumented aliens before they reach our 
shores. INS is also working closely with other democratic governments 
on various initiatives, some of which I will discuss later.
    Currently, there are over 5,000 Immigration Inspectors staffing our 
POEs and over 8,000 Border Patrol Agents patrolling more than 8,000 
miles of border. Of the Immigration Inspector positions, over 500 are 
located on the northern border. The remaining positions are deployed to 
the southern land border (1,485) and to air/sea ports (3,044) 
throughout the country. This equates roughly to the inspections 
workload on each land border, with approximately 26 percent of our 
border workload and 26 percent of our staff on the northern border. 
There are 7,705 Border Patrol Agents stationed along the southwest 
border and over 460 located at the northern or coastal borders. This 
also reflects the approximate workloads on the northern and southern 
border; the northern border represents less than one percent of our 
apprehensions and has approximately four percent of the agents.
    Our strategic plan for border enforcement is to first control the 
southwest border. In order to gain control of the border, since 1994, 
the INS has strategically deployed both personnel and equipment along 
the U.S.-Mexico border. Since that time, the number of Border Patrol 
Agents and Immigration Inspectors deployed to the southwest border has 
doubled, lighting has been installed, fences built, and sensors put 
into place. This strategy has proven highly successful in gaining 
control of the most heavily trafficked portions of the southwest 
border.

                              INSPECTIONS

    In fiscal year 1999, Immigration Inspectors encountered over 525 
million applicants for entry into the U.S.: 115 million at the northern 
land border, 319 million at the southern land border, and 91 million at 
air and seaports. While the total number of applicants for entry has 
risen approximately 9 percent over the last five fiscal years, the 
amount of document fraud encountered in the course of those inspections 
has risen 20 percent. Enforcement actions such as vehicle seizures have 
risen 100 percent while alien smuggling apprehensions at the POE's have 
risen 117.5 percent. The increased resources have clearly produced 
impressive gains in enforcement results.
    In order to enforce our laws more effectively and secure our 
borders, Immigration Inspectors have instant access to a broad range of 
information through the use of the Interagency Border Inspection System 
(IBIS). This information is used to identify and process individuals 
who may be inadmissible or removable from the U.S. or subject to other 
enforcement actions by another agency. In the past five years, the 
annual number of IBIS lookout system intercepts increased 200 percent 
from a little more than 50,000 to over 150,000.
    The INS also makes a major contribution to the Federal enforcement 
inventory of lookout records and related information, in IBIS, through 
our National Automated Immigration Lookout System (NAILS). NAILS is the 
repository for lookout information generated by the Department of 
State's (DOS) Bureau of Intelligence and Research (INR). INR maintains 
a classified database containing records on individuals who have been 
identified through analysis of all source information as probably or 
definitelyinvolved in terrorist activities. Because these records 
relate to the admissibility or inadmissibility of an alien, INS is the 
lead agency for responding to matches at POEs throughout the U.S. When 
Immigration Inspectors at POEs encounter the subject of a terrorist 
lookout, the INS coordinates with INR and others to determine what 
actions to take against that individual. With the consent of the 
proprietor of the derogatory data, the INS may use classified/sanitized 
information in a proceeding against the alien for inadmissibility. 
During fiscal year 1999, 88 confirmed hits against the INR database of 
suspected or known terrorists were made nationwide.
    The INS believes that there is value in the use of technologies 
like Dedicated Commuter Lanes (DCL), the Remote Video Inspection System 
(RVIS) and the Outlying Area Reporting System (OARS). These systems 
allow INS to improve border enforcement while facilitating the entry of 
low-risk travelers. The INS is working with the U.S. Customs Service 
(USCS) to identify how these systems are best applied to border 
security and facilitation uses.

                             BORDER PATROL

    Nearly six years ago INS implemented its multi-phase, multi-year 
strategy to prevent the illegal entry of people and contraband while 
facilitating the flow of legal immigration across the border. In the 
area of border management, we have achieved more in the past five years 
than had been accomplished in any comparable period. Nowhere else is 
the success of our strategic approach to enforcement more evident than 
along the southwest border.
    Before 1994, there was no comprehensive unified plan for 
controlling the 2,000-mile border with Mexico. The number of 
immigration enforcement personnel was insufficient to get the job done, 
and those we did have did not have the logistical support necessary to 
accomplish their mission. As a result, illegal immigrants and drug 
smugglers came across the border with the expectation that they would 
easily evade apprehension.
    In February 1994, Attorney General Janet Reno announced the 
implementation of a multi-year strategy to strengthen enforcement of 
the nation's immigration laws and to disrupt illegal entry via 
traditional smuggling corridors along the nation's southwest border. 
The strategy specifically called for ``prevention through deterrence'', 
that is, elevating the risk of apprehension to a level so high that 
prospective illegal entrants consider it futile to attempt to enter the 
U.S. illegally. The Border Patrol developed an operational plan to 
implement the Attorney General's strategic plan. The INS greatly 
appreciates Congressional support for this strategy through its 
continued increased appropriations for the Border Patrol.
    The INS has achieved considerable success in restoring integrity 
and safety to the southwest border by implementing the strategy through 
well planned operations, such as Operation Gatekeeper in California and 
western Arizona, Operation Safeguard in central and eastern Arizona, 
and Operation Rio Grande in New Mexico and Texas. It has been almost 
six years since the INS began this effort, and the strategy is having a 
significantimpact. Border Patrol apprehensions in the San Diego Sector, 
once the nation's busiest illegal border crossing, are at a 24-year 
low. Crime rates in many border communities have fallen dramatically. 
At the same time, the fees charged by alien smugglers along the 
southwest border have risen to record levels, a sign that the border is 
increasingly more difficult to breach.

                     BORDER COORDINATION INITIATIVE

    In August 1998, the Attorney General and the Secretary of the 
Treasury announced the Border Coordination Initiative (BCI). The BCI is 
a strategic plan for increased cooperation on the southwest border by 
INS and the USCS to enhance the interdiction of drugs, illegal aliens, 
and other contraband. The goal of the BCI is to create a comprehensive, 
integrated border management system at and between the POEs that 
effectively achieves the mission of each agency.
    The interagency approach of the BCI has boosted our enforcement 
efforts along the border by drawing from the varied skills and 
expertise within both organizations. This approach is not limited to 
INS and USCS. One of our goals this year is to formally involve other 
Federal agencies including: Coast Guard, Agriculture, Federal Bureau of 
Investigation, Drug Enforcement Agency, and the High Intensity Drug 
Trafficking Areas (HIDTA) task force along with state and local law 
enforcement agencies in the BCI. This year, we have tasked our field 
managers with formalizing that involvement through joint planning, 
effective coordination, and joint implementation of this year's BCI 
Action Plans.
    Although the initial focus of the BCI has been the southwest 
border, the INS and the USCS are considering expansion to the northern 
border. In late September, the Port Management component of the BCI was 
presented to INS and USCS field managers in the Detroit area.
    Cooperation, as exemplified by the BCI, is the key to effective 
border management. The BCI has proven itself to be an effective and 
broad-based mechanism to date for coordinating the law enforcement 
activities of agencies operating along the southwest border of the U.S.

                        COOPERATION WITH CANADA

    Canada and the U.S. have a partnership that works. We share the 
longest undefended border in the world. The INS staffs 105 ports-of-
entry, 8 Border Patrol Sectors and 44 Border Patrol stations along the 
3,987 miles of border with Canada (excluding Alaska). The INS, with the 
cooperation of USCS, Citizenship and Immigration Canada (CIC), Revenue 
Canada (RC), and the Royal Canadian Mounted Police (RCMP), is keeping a 
close watch on our shared border.
    The two-way movement of illegal aliens across our border is a 
concern that both countries are addressing through long-standing 
cooperative relationships. Neither Canada nor the U.S. views the border 
as an impermeable barrier, but rather a border that supports trade and 
travel while protecting the social and economic well-being of both 
countries.
    Although Canada and the U.S. have differences in their immigration 
laws, both countries have similar goals and objectives where illegal 
immigration issues are concerned. The two countries have a long and 
cherished tradition of embracing immigrants and openness of expression. 
For both the U.S. and Canada, one of the challenges for democracy is in 
striking the right balance between facilitation and enforcement while 
guarding against becoming a refuge for terrorists from abroad. Canada 
has become the U.S.' closest ally in the fight against illegal 
immigration. The U.S. recognizes that illegal immigration issues cannot 
be dealt with in isolation, as does Canada.
    In combating illegal immigration, and terrorism in particular, the 
challenge for U.S. and Canadian officials is the rapid and timely 
exchange of information on such individuals who pose a common threat. 
Exchanges of information follow established formal protocols, 
strengthened by the personal liaison between our officials at the 
border. Our officers at the border, in the interior, and overseas, work 
together closely and continuously to prevent illegal immigration to 
both countries.

                             BORDER VISION

    Our current border strategy is designed to address ever-changing 
crossing patterns. We anticipate that the success in our efforts at 
controlling the southern land border may result in the shifting of 
crossing to the northern border. Illegal entry apprehension figures 
from the Canadian border are still small when compared to the southwest 
border. Our challenge is to work with our Canadian partners to ensure 
the Canadian border does not become a viable alternative gateway for 
illegal entry to the U.S.
    In November 1997, Attorney General Janet Reno and Minister of 
Citizenship and Immigration Canada (CIC) Lucienne Robillard agreed to 
build on our already successful cooperation by encouraging immigration 
officials to formalize their partnership in a Border Vision exercise. 
They directed the immigration services of Canada and the U.S. to expand 
joint cooperation on migration issues (overseas, border and interior) 
to protect the region against illegal immigration and the movement of 
terrorists and criminals. This exercise complements the joint 1995 
U.S./Canada Accord on Our Shared Border.
    INS and CIC officials, working closely with their respective State 
Departments, are finding ways to combine resources to protect their 
citizens against the threats associated with illegal immigration and 
the movement of terrorists, drug traffickers and other criminals. Both 
countries have taken concrete steps to systematically and regularly 
share information on known or suspected terrorists to ensure early 
detection. In May 1997, the U.S. signed an agreement with Canada to 
share a list of names of known and suspected terrorists. The program 
was implemented in April 1998. Clearly, such joint activities 
illustrate the exceptional level of cooperation between the U.S. and 
Canada.
    The spirit of cooperation on sharing information between Canada and 
the U.S. took a major step forward with the signing of the Statement of 
Mutual Understanding(SMU) on Information Sharing on June 24, 1999. The 
SMU allows for the exchange of information on a variety of immigration-
related activities between the two countries.
    In addition to the SMU, INS and CIC are exploring the potential for 
cooperation on issues such as: name search technology for foreign 
languages, sharing passport-reader technology, the mapping of major 
smuggling routes to the U.S. and Canada, and joint interdiction 
exercises to dismantle smuggling syndicates and established smuggling 
routes.
    Additionally, the INS and the Department of State (DOS), working 
with Canadian authorities, have made significant progress in 
establishing better coordination between the two countries on visa and 
entry policies and operations. A comparative paper on visa exemption 
policy has been drafted. INS and DOS have reached an understanding with 
CIC on the consultative mechanisms on visa and entry policy, 
specifically with regard to the sharing of information from visa and 
immigration records for the purpose of enhancing border security. The 
U.S. and Canada have also prepared comparative papers on visa issuance 
policies.
    Improving coordination between Canada and the U.S. includes an 
analysis of criminal offenses of aliens refused admission at certain 
U.S./Canadian border ports. Canada and the U.S. have also discussed a 
pilot program to identify those criminal aliens who have been deported 
by both countries, to be accomplished through the sharing of 
fingerprint data. We are also exploring the creation of a joint U.S./
Canada interdiction and intelligence exercise on illegal aliens 
transiting the U.S. in order to attempt entry into Canada.

                         THE U.S./CANADA ACCORD

    The U.S./Canada Accord on Our Shared Border brings together four 
agencies, RC, CIC, USCS and INS to focus on joint land border issues 
such as enhancing the security, enforcement and service at low-volume, 
remote POEs along the northern border with the use of alternative 
inspection systems such as RVIS, OARS, and the DCL's at selected ports.
    Alternative inspection locations are selected only after a careful 
risk analysis, which includes consideration of prior enforcement 
actions and compliance, the general location, surrounding communities, 
traffic volume and various intelligence regarding actual or potential 
threats. Previously, citizens at these locations were restricted from 
crossing by the limited hours of operation. In addition, many remote 
locations had little, if any, security and surveillance capability. The 
use of technology such as remote video interviewing capability, 
automated inspection, and license plate readers, significantly 
increases the security of the border. RVIS also provides better 
lighting, surveillance capabilities and a 24-hour law enforcement 
presence where previously none had existed. RVIS is currently deployed 
to nine northern border sites.
    Programs under the private boat initiative, including the Outlying 
Area Reporting System (OARS), enhance the service provided to the 
boating and snowmobile communities along the northern border. OARS is a 
two-way video telephones that enables travelers to receive a primary 
inspection at selected marinas, docks, and remote areas where there are 
no inspection facilities.
    These initiatives demonstrate the close bilateral cooperation of 
our two countries. They also demonstrate the way in which cross-border 
cooperation can work towards the common objective of protecting the 
security of both our nations.

                TERRORIST THREAT AT THE NORTHERN BORDER

    In December 1999, the INS expanded the security level nationwide in 
response to intelligence that indicated there would be an increase of 
entry attempts by terrorists. INS offices coordinated their planning 
process at the local level with the other INS enforcement programs, 
Federal inspection agencies, and state and local law enforcement 
entities.
    To enhance security, the POE's: Increased overtime to provide for 
additional coverage on each shift, moved or detailed inspectors between 
POE's within the same District, and canceled some annual leave, 
coordinated scheduling with U.S. Customs Service, identified additional 
enforcement personnel to augment staff coverage at POE's and increased 
joint enforcement activities such as pre-primary roving, block blitzes, 
and 100 percent trunk searches with Customs.
    During the days surrounding January 1, 2000, the Border Patrol 
increased its enforcement posture all across the northern border. The 
Border Patrol: Detailed agents from non-northern border Sectors, 
canceled some annual leave, used overtime and six-day workweeks to 
expand enforcement coverage, coordinated with local law enforcement 
agencies to secure their support in the event additional assistance was 
required, increased the frequency of contact with Canadian law 
enforcement agencies, and enhanced presence in and around POE's.

                LIAISON WITH COUNTER-TERRORISM COMMUNITY

    The INS currently dedicates six full time positions to other 
federal agencies at the Headquarters level. At the field level, the INS 
participates in the FBI's JTTF. The agents provide expertise on INS 
subject matters ranging from the arrest of suspected terrorists for 
violation of INS statutes to the coordination of potential threat 
alerts and lookouts with various INS components.
    Recently, the FBI received threat information regarding the 
possible entry of alleged extremists along the northern border of the 
United States in the wake recent arrests. Through national level 
coordination, the INS rapidly disseminated critical information to 
allow targeted ports of entry to reinforce their resources.
    The national level representation of INS at FBI Headquarters allows 
the FBI and INS to coordinate cooperative arrests in cities where the 
INS is not represented on the JTTF. On December 30, 1999, the INS 
supported the FBI during the course of its investigations by 
interviewing numerous individuals. As a result, six subjects were taken 
into custody for violation of United States Immigration laws.
    During the past thirty days, the FBI and INS have jointly arrested 
fifteen additional suspects nationwide related to counter-terrorism 
efforts. Twelve of the fifteen arrests were for INS criminal and 
administrative violations.
    The INS' participation and coordination has also resulted in other 
effective and significant counter-terrorism operations such as: In 
March 1999, Operation Eastern Approach conducted by the Los Angeles 
JTTF resulted in the arrest of 29 suspects for terrorism and 
immigration violations and the first conviction of an individual for 
violation of the statute prohibiting material support of a terrorist 
organization, the MEK or Mujaheddin-e-Khalq, and Other JTTF operations 
during the past year include the FBI-INS coordinated removal of Hani 
El-Sayegh to Saudi Arabia. El Sayegh is suspected of being a 
conspirator in the Khobar Towers bombing in Saudi Arabia, resulting in 
the deaths of nineteen U.S. armed forces personnel.

                               CONCLUSION

    As you see, our commitment to border security does not start or end 
with the inspection of persons at a port-of-entry. Our strong working 
relationships with other Federal, state, and local law enforcement 
agencies, international law enforcement agencies and other governments 
allows the INS to safeguard our nation's borders, taking a global 
approach. This is especially apparent along the northern border because 
of our close relation with Canada.
    In closing, I would like to emphasize that inherent in our border 
enforcement strategy is the flexibility to respond to emerging 
conditions and changing tactics. I look forward to working with the 
Subcommittee to ensure that INS can continue to meet today's demands 
and tomorrow's challenges.
    Thank you Mr. Chairman and I would be happy to answer any questions 
that you and Members of the Subcommittee may have.

    Senator Abraham. By previous agreement with respect to the 
testimony of Inspector Dean, because of the ongoing nature of 
the circumstances in the case there, we will defer any 
questioning today. So let me just focus on Mr. Winwood and Mr. 
Pearson.
    Mr. Pearson, you talked a little bit about the relationship 
between the United States and Canada. Obviously, in the wake of 
the Ressam case, there have been some concerns about whether or 
not there is a well-coordinated effort. And I guess, Mr. 
Winwood, I would kind of like to throw it to both of you. Maybe 
in our case, Mr. Pearson, amplify a little bit on your views as 
to how effective the coordination is, and in the case of Mr. 
Winwood on the Customs side as well. So could you maybe expand 
a little bit?
    Mr. Pearson. Yes, Mr. Chairman, I would be glad to. I think 
we have a good, close coordination nationally, and also with 
each of our sectors and at the ports of entry in our districts 
with working with Canada, both with the Canadian immigration 
system but also with the Royal Canadian Mounted Police. We 
exchange information on terrorists, we exchange intelligence 
information. We work together on areas that are being covered.
    In the State of Washington, for example, earlier this week 
at our Border Vision Conference with Canada, we were working 
with the Canadians about the way we have divided much of the 
southwest border and are doing on the northern border with 
zones, working such that as we are covering particular zones in 
the Spokane Sector, those areas that we are not focusing on or 
don't have the immediate resources to cover, the Royal Canadian 
Mounted Police are covering the opposite side.
    In fact, in Spokane, they have set up zones that are 
exactly parallel to ours so we can exchange that information. 
We are exchanging information on terrorists, on threats. Much 
of the information we get and people we have stopped at ports 
of entry or between ports of entry have been because the 
Canadians have provided information on who is coming.
    Senator Abraham. Mr. Winwood.
    Mr. Winwood. Mr. Chairman, I would echo those statements. I 
think Mr. Pearson has covered the cooperation we have at the 
border. The other example I would cite was when this heightened 
alert occurred, the establishment of a collaborative task force 
in Ottawa, with intelligence units on both sides of the border. 
We have Customs officers assigned in Canada both for pre-
clearance and at the embassy in Ottawa, the attache's office, 
that has immediate access to law enforcement information.
    There was a tremendous amount of information exchanged, 
shared, analyzed between the two governments not only during 
this heightened alert but during other circumstances. So I 
would say that the cooperation is outstanding. It is 
coordinated. People work well together and there is an exchange 
and flow of information to help each other because we do have a 
shared concern particularly on our northern border.
    Senator Abraham. The concerns that have been expressed 
about the Canadians' policies with respect to immigration, and 
so on, that Senator Feinstein mentioned and others, and the 
media, and so on, obviously poses a concern. But is it your 
testimony here today, though, that with respect to the 
monitoring of those kinds of terrorist activities, but in 
particular as to the possibility of people using Canada as a 
base to come to the United States, that we are receiving the 
fullest possible assistance that we can from the Canadian 
government?
    Mr. Pearson. I think that certainly we don't have a system 
that is going to catch everything. I wouldn't want to mislead 
you by saying that with full cooperation we know everything 
there is to know about who is in Canada and who is attempting 
to get to the United States, just as we don't know everything 
about who is in the United States and what they may be 
attempting to do here.
    Senator Abraham. Sure. My question was more is it your 
perspective that the Canadian government is cooperating as 
fully as they possibly can in working with us at this point, or 
are there things we should be asking for that we have not.
    Mr. Pearson. The answer to your question, Mr. Chairman, is, 
yes, I believe they are. I think we have a very good 
relationship with them. They have been very open.
    Senator Abraham. And on the Customs side?
    Mr. Winwood. Yes, sir, I would have to echo that, also. 
Particularly in these circumstances, the data and information 
was open, the information was flowing back and forth. There was 
nothing kept back from either side, very open and very 
cooperative.
    Senator Abraham. Now, let me shift gears a little bit. When 
the incidents that Inspector Dean was part of took place, you 
have already chronicled the flexibility that was used to bring 
people to the Port Angeles area, to the border in that area, 
but obviously that strained conditions elsewhere.
    Can you give us perhaps a little sense of what kind of 
limits and what constraints we have, and more or less what was 
left, shall we say, more vulnerable perhaps because of that 
shifting of resources?
    Mr. Winwood. Well, in our case, Mr. Chairman, we hope we 
didn't leave anything vulnerable. What we did was we didmove 
some personnel from other locations, but at each location where we 
removed personnel we asked our officers to work extra hours. We covered 
normal processing at our southern border and our airports and seaports, 
where people volunteered to go to the northern border during this 
heightened time.
    Now, the strain, of course, was on the officers. They had 
to leave home, they were on temporary detail, they were in 
strange areas. They knew their job, they were well-trained, but 
it was away from home. So the strain on us was moving people 
and keeping them away from their home port on these temporary 
details.
    Our goal, though, with our operational plans and our alert 
levels is that we have contingency plans that allow us to then 
back up and put other officers on the line or to take other 
procedures and to increase the amount of hours and overtime 
that we use to cover the places where we pull people from.
    Mr. Pearson. And we did the same thing. Our personnel 
really stepped up, understood why leave had to be canceled and 
understood why they had to work additional duties over 
Christmas and New Year's and stuff like that. We did have 
intelligence information on which routes our intelligence 
community thought that the threats might be coming, so we did 
focus on more attention on those routes, drawing from other 
areas. But I wouldn't say that we left any area vulnerable.
    Senator Abraham. Well, let me ask it a little differently. 
And I am glad to hear it, obviously; I am sure all of the 
audience is as well. But let me just ask how many such threats 
at one time would we be able to address, given the personnel 
levels that we have today, and for how extensive a time frame 
would that be possible?
    Mr. Pearson. That would be a very difficult question to 
answer because we certainly look at the extent of the threat, 
what we are looking for for the kinds of numbers. We have 305 
Border Patrol agents on the northern border. We recognize that 
for where we want to get in the border strategy that that is 
not enough. That comes in Phase IV, as we have discussed 
before.
    Should the threat level be high enough, we can take from 
other parts of the country, to include the southwest border. We 
have not done that yet because of the successes we have had on 
the northern border, and I would say the same applies at the 
ports of entry.
    Senator Abraham. I recognize the hypothetical nature of the 
question makes it difficult to address, but I guess the concern 
that I have is that while, when we were able to focus all of 
our energies in one area, we could maintain adequate vigilance 
to cover that area and be able to kind of make due elsewhere 
because of people working extraordinary hours and being taken 
off their leaves, and so on, it just seems to me that you 
probably couldn't be doing more than a few of those kinds of 
intense efforts at the same time without basically breaking the 
system, which leads to something I will be asking about later.
    I don't want to answer these for you, but I obviously am 
interested in, practically speaking, what can be done in the 
face of, say, a multi-tiered threat.
    Mr. Winwood. Well, Mr. Chairman, I will tell you that the 
actions we took obviously put a strain on the organization both 
in time and cost. There are only so many hours a day that 
dedicated officers like Diana and others can work. When you 
have people working 16 hours a day, double shifts, in very 
trying conditions, it takes its toll.
    I will also tell you, as I mentioned in my testimony, that 
the tremendous growth in travel and trade that is affecting 
this country, which is good--it is good for the economy--there 
has never been a perfect match with resources to address the 
increase.
    So is it a strain? Yes. Is it the most optimal way to work? 
I would say no. I guess this is the time to thank you for the 
efforts you have done with the bills that you have proposed 
recognizing the need to at least match the growth of work that 
we face on a day-to-day basis. If we could at least do that, we 
would have the opportunity to make the proper adjustments for 
these types of crises that will arise. If you have the right 
base and match the growth accordingly, then the strain for 
instances such as this isn't quite as bad. But it is not the 
ideal way to operate for long-term or multiple crises.
    Senator Abraham. Well, that is kind of where I was headed 
because it seems to me that we do need to give you the support 
you need. I said at the outset and, of course, have been 
talking about that a couple of years now. It just seems as a 
practical matter that if you were trying to be highly strategic 
about it and you were trying to figure out a way to penetrate 
our net here, you would take advantage of a situation where 
there was a particularly disproportionate number of agents, and 
so on, aimed in one particular area, that would give you 
probably an incentive, if you were trying to smuggle somebody 
into this country, to do it where the lines were shorter.
    That goes to really what I guess I wanted to finish this 
panel with, and that is just to ask you what sorts of things 
we, the Congress, should be doing in terms of providing support 
to make it possible not to meet every crisis, but to meet just 
the challenges we have today.
    The number in terms of the northern border which has been 
mentioned here several times, whether it is the Detroitregion 
where we have got 30 inspectors covering 4 States, hundreds of miles of 
border, or 400 for the entire 4,000-mile border, are ones that cause us 
to be particularly shocked. I mean, I think anybody recognizes that 1 
agent per 13 miles, or whatever the ration is, is inadequate.
    We obviously want to hear what your needs are, so let me 
just throw it open and let each of you on behalf of your 
agencies give us a sense of what you are looking at and what 
you think would be the kind of force level that would give you 
the ability to defend the borders the way you want to.
    Mr. Winwood. Well, Mr. Chairman, I would say one thing. A 
sound bite I heard when this incident occurred which I think 
echoes what you just said was that it is probably true that 
Ressam did not pick the ferry and arriving at Port Angeles 
because he wanted a nice ferry boat ride. It is a very 
vulnerable port, it is small, it is isolated, and obviously it 
is a target of opportunity for people who would like to take 
advantage of our borders.
    I think the best way I could answer it, Mr. Chairman, is 
when you have the opportunity with our commissioner 
establishing through PricewaterhouseCoopers one of the first 
ever total, across-the-board resource allocation models that 
takes into account the information associated with growth, et 
cetera--I think the best way to do that is, when you and your 
staff have the opportunity, to show you what we are trying to 
do which gives us an indication of what the staffing to meet 
the needs of the future should be.
    It is more of a documented, well-designed methodology 
versus throwing out numbers. So rather than throw out numbers, 
I would say let's take a look at the resource allocation model 
when it is finally finished--there are a few more modifications 
to be made to it--demonstrate it to you and see where that 
takes us because I think it will show where we need to have the 
proper increases to meet the tremendous growth of work and 
challenges that face anybody that is attempting to secure the 
borders for the American public.
    Senator Abraham. Well, whenever anybody appears with a 
notebook as thick as that, I mean we are always very 
interested, and we will have you testify as to its contents at 
a later point. But I suspect that not all 100 members of the 
Senate are going to be interested in the documents there. But I 
think it is important--I mean, we will be happy to obviously 
meet with you--but to get a sense of what the needs are in 
perhaps a more succinct way.
    Mr. Winwood. Mr. Chairman, please, I will not put you 
through this. I can't go through this, but what this model 
does----
    Senator Abraham. I guess the question is after I have gone 
through the first 972 pages, is there on the last page sort 
of----
    Mr. Winwood. Right, that is what the model does. The model 
gives the numbers. That is it. This is just how the model is 
put together. I wouldn't put you through this.
    Senator Abraham. You have referenced it enough. I am 
sufficiently intimidated now.
    Let's move to Mr. Pearson. What do you need over there? You 
don't have a notebook, so you must have a number.
    Mr. Pearson. Well, actually, Mr. Chairman, I do, but it is 
in notes here. Let me first thank you for all the support you 
and the subcommittee have given over the years. The INS has 
grown tremendously since 1994. And it is not just the INS, but 
the support that you have given for the inspection stations.
    The simple answer is continue with that support. Recognize 
that, as Mr. Winwood talked about and I mentioned, that the 
Border Coordination Initiative is something that works. We 
recognize that at the ports of entry, we are a team. So I would 
ask that with the President's budget for 2001, please support 
it both on the Customs side and the INS side, so we can get 
some more inspectors out there and we can get more personnel to 
help guard our borders, as well as the use of technology.
    Senator Abraham. We will support it. I think our plan is 
probably to provide more support than is outlined in it. And I 
recognize obviously when the President is putting a budget 
together, he has to make priority decisions, but I have to 
confess that at least my understanding is that the numbers, as 
I indicated in my remarks, that are supported there or that are 
proposed are not at the 1,000 new per-year agent level that I 
know the Congress supports.
    I have always said we have one of the more unusual 
subcommittees, in that most of my fellow subcommittee chairs 
have agencies come to them and ask for more money than Congress 
is prepared to provide. I sort of find myself in the reverse 
role of trying to urge more requests because I think this 
committee is prepared to provide whatever reasonable requests 
are made here in terms of addressing some of these problems. So 
we will obviously be talking more about it.
    With respect to inspectors, my understanding is that the 
administration is proposing 115 new land border inspectors. Is 
that right?
    Mr. Pearson. That is correct.
    Senator Abraham. But I believe 87 of those will go to new 
ports of entry that are being created in Texas. I think that is 
the allocation, which means only 28 will go to existing land 
border ports. That is where I think we are going to have some 
disagreement here probably not in thesubcommittee but in the 
Congress.
    Now, that doesn't mean we can't come to an agreement 
ultimately, but every indication we have had is that 28 for the 
rest of the country is not enough and that we are going to have 
to plus-up that amount. I know from the agency's point of view 
our support in that respect may not be on your immediate 
agenda, but probably something we can work together to achieve.
    But I would say that Congress, I think, is interested in 
providing that support, and I think I can speak for most of the 
subcommittee that there is that type of backing here. And I 
think we are a little bit frustrated sometimes when the 
proposals are lower than what seem to be at least the needs, 
but we can save that discussion for a later date.
    I just would conclude by saying that Inspector Dean's 
presence here today means a lot to us, and I know that those of 
you here in Washington appreciate the people on your front 
lines. They don't always get the attention in the favorable way 
that we want, but I think as Senator Feinstein said, and 
Senator Gorton, and I tried to allude as well to the fact that 
it is real people on the front lines that are the ones who make 
the difference.
    We can have all the high-tech equipment, and so on, and 
that can make a difference, too, but I think at the end of the 
day you have to have talented, trained people running that 
equipment. And you have to have people who have, through their 
own personal experiences, the expertise to make a discerning 
difference between someone who might pose a threat and someone 
who doesn't.
    And ultimately you have to have well-trained, but also I 
think well-compensated people, people who have an incentive to 
do their jobs well. And that is another part of our goal here 
to try to not just talk in terms of increasing numbers, but 
making sure that the job itself is sufficiently reimbursed, 
remunerated, and supported so that the people who can do the 
job want to stay in this work.
    One of the things that we learned at an earlier hearing--
and it was somewhat, I guess, not surprising in a sense, but 
somewhat disappointing--was that a lot of the very best people 
on the front lines are basically being recruited away by either 
other Federal law enforcement agencies or the private sector 
because the pay and compensation and benefits are inadequate to 
really cause the jobs that we have here in the Border Patrol 
and Customs, and so on, to be sufficiently appealing.
    And we don't want that to happen. We want you to stay doing 
that job because you have proven that you are our best line of 
defense, Inspector. So we are going to continue to push for 
improvement in those kinds of conditions so that we, in fact, 
can meet the goal of recruitment that we want and the retention 
of people, because a lot of our problem has been that even 
though we are recruiting new people, we are losing folks that 
cause the net number to not be as high as we want.
    So I thank you all and we will ask the next panel to come 
up. But Inspector Dean, particularly, thank you for what you 
have done for your country. We are grateful.
    Ms. Dean. Thank you.
    Senator Abraham. Again, I want to thank our first panel and 
now welcome our second panel. We are joined by, again, three of 
our front-line folks who work on our borders.
    First, we have Mr. Robert Lindemann, who has been here with 
us before. It is good to have you back, Agent Lindemann. He is 
a senior patrol agent in the Detroit Sector and a 15-year 
veteran, a union steward for the National Border Patrol 
Council.
    We also have INS Inspector Ryan Callister, from the 
Eastport, ID, port of entry office, and shop steward, I guess, 
of Local 40, American Federation of Government Employees.
    Then we also have and welcome INS Inspector Ora Smith, who 
is also from my home State of Michigan, where he is the 
president of Local 46 of the American Federation of Government 
Employees.
    Let me say that, as I acknowledged to Inspector Dean, we 
really appreciate the work that you and your colleagues do. The 
people of Michigan certainly appreciate our team at home, and I 
am sure that the folks in Idaho do you as well, Inspector 
Callister. We kind of take some of this for granted. In fact, 
because of the very nature of the work, too often the only 
contact citizens have with people in the Border Patrol or the 
inspections, and so on, come when they are traveling across the 
border and there is a traffic jam or congestion and they get 
frustrated.
    But when a story like the one at Port Angeles happens, then 
I suspect it causes people to rethink their impatience and 
appreciate the fact that the job that you have to do is a 
pretty challenging one that requires the skills that you all 
bring.
    So I want to just say that up front and now turn to you, 
Agent Lindemann, for opening comments.

 PANEL CONSISTING OF ROBERT E. LINDEMANN, SENIOR BORDER PATROL 
   AGENT, DETROIT SECTOR, AND UNION STEWARD, NATIONAL BORDER 
 PATROL COUNCIL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, 
    DETROIT, MI; RYAN H. CALLISTER, IMMIGRATION INSPECTOR, 
IMMIGRATION AND NATURALIZATION SERVICE, AND STEWARD, LOCAL 40, 
AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, EASTPORT, ID; AND 
   ORA A. SMITH, IMMIGRATION INSPECTOR, SPECIAL OPERATIONS, 
 IMMIGRATION AND NATURALIZATION SERVICE, AND PRESIDENT, LOCAL 
  46, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, DETROIT, MI

                STATEMENT OF ROBERT E. LINDEMANN

    Mr. Lindemann. First off, I would like to thank you again 
for having me in front of your committee. First, I would like 
to discuss an ongoing problem that continues to plague the 
northern border and Southeast, directly affecting our ability 
to provide adequate border security. There seems to be a lack 
of commitment from the INS to provide these areas with the 
necessary officers, support personnel, equipment, and funding 
to secure the border and combat an escalating alien and drug-
smuggling problem.
    Woefully inadequate staffing levels, antiquated technology, 
and insufficient funding have greatly reduced our ability to 
control illegal immigration and drug-smuggling in these areas. 
Current staffing and funding for these critical areas is only a 
fraction of what is needed.
    Routine repairs to patrol vehicles are often neglected, 
patrol boats sit idle, and illegal aliens that should be 
detained or deported are released. This severe deficiency in 
border enforcement readiness was highlighted last December 
after several Algerian terrorists were captured trying to enter 
the United States and the INS attempted to provide around-the-
clock border security on the 4,000-mile northern border with 
fewer than 300 agents. As you can well imagine, it was 
impossible to provide adequate security with such a small 
workforce.
    For years, experts have identified the northern border and 
Southeast as likely and preferred avenues for criminals to 
enter the United States because of the vast territory and lack 
of law enforcement personnel. Although this is common 
knowledge, it appears to have been ignored by the INS in 
determining staffing allocations. It is heartening to see that 
some members of Congress are trying to correct these 
deficiencies and place much-needed resources in these critical 
areas to avert future potential threats to our national 
security.
    Senate bill 745, introduced by Senator Abraham, would 
require funding for much-needed increases in manpower and 
resources for the Border Patrol, INS, and Customs Service. The 
National Border Patrol Council supports this initiative and 
commends you, Senator, for your tireless commitment to 
strengthen our borders. Your leadership, as well as Senator 
Kennedy's and that of other members of this subcommittee, has 
been invaluable.
    We ask Congress to ensure that any legislation that adds 
manpower to the Border Patrol on the northern border and 
Southeast specify that such personnel be voluntarily 
transferred from the ranks of experienced officers, for three 
reasons.
    First, the complexity of work on the northern border and 
Southeast is generally greater than that on the southwest 
border, requiring agents that already have field experience.
    Second, the northern border and Southeast do not have the 
resources to properly train new agents.
    Third, and by no means least importantly, placing new hires 
in highly desirable locations on the northern border and 
Southeast that current officers have been waiting years to 
transfer to would have a devastating effect on morale, 
exacerbating an already high attrition rate.
    In addition to the equipment and manpower specified in 
Senate bill 745, there needs to be specific language directing 
additional resources to the Border Patrol, particularly on the 
northern border and Southeast. Sad experience has shown that 
the INS will not do the right thing unless it is ordered to do 
so.
    In addition to the equipment specified in Senate bill 745, 
consideration should also be given to funding long-range patrol 
boats for the Border Patrol. Additional funding should be 
provided for upgrading communications equipment and intrusion 
sensors for the northern border and Southeast. The systems 
employed throughout these areas are antiquated and inadequate 
by any standards.
    We commend Senator Abraham and this subcommittee for the 
vision to provide funding for 40 intelligence analysts to be 
deployed in drug-trafficking areas. This would be the first 
time that the Border Patrol would have a trained staff of 
intelligence personnel to gather and disseminate the raw 
intelligence gathered from the field.
    In closing, the longer it takes to increase officers and 
support personnel, modernize and augment technology, and 
provide adequate detention and removal funding on the northern 
border and Southeast, the more attractive these areas will be 
for aliens and drug smugglers.
    Again, thank you for having me and I will answer any 
questions you have, sir.
    Senator Abraham. Thank you.
    [The prepared statement of Mr. Lindemann follows:]

               Prepared Statement of Robert E. Lindemann

    Good afternoon. My name is Robert E. Lindemann. I am the Vice 
President of the National Border Patrol Council, Local 2499. I am a 
Senior Border Patrol Agent with over 15 years of experience, and am 
currently assigned to the Detroit Border Patrol Sector.
    Thank you for the invitation to appear before this Subcommittee 
regarding the important issue of border security.
    First, I would like to discuss an ongoing problem that continues to 
plague the northern border and Southeast, directly affecting our 
ability to provide adequate border security. There seems to be a lack 
of commitment from the I&NS to provide these areas with the necessary 
officers, support personnel, equipment and funding to secure the border 
and combat escalating alien and drug smuggling. Woefully inadequate 
staffing levels, antiquated technology, and insufficient funding have 
greatly reduced our ability to control illegal immigration and drug 
smuggling along these areas.
    While manpower, equipment and funding for these areas should have 
increased at the same time the southwestern border was augmented, it 
actually decreased. Small increases were undertaken only after inquiry 
and prodding by concerned members of this Subcommittee.
    Current staffing and funding for these critical areas is only a 
fraction of what is needed. Routine repairs to patrol vehicles are 
often neglected, patrol boats sit idle, and illegal aliens that should 
be detained and deported are released.
    This severe deficiency in border enforcement readiness was 
highlighted last December after several Algerian terrorists were 
captured trying to enter the United States and the I&NS attempted to 
provide around-the-clock border security on the 4,000 mile northern 
border with fewer than 300 agents. As you can well imagine, it was 
impossible to provide adequate security with such a small workforce.
    For years, experts have identified the northern border and 
Southeast as likely and preferred avenues for criminals to enter the 
United States because of the vast territory and lack of law enforcement 
personnel. Although this is common knowledge, it appears to have been 
ignored by the I&NS in determining staffing allocations.
    It is heartening to see that some members of Congress are trying to 
correct these deficiencies and place much-needed resources in these 
critical areas to avert future potential threats to our national 
security.
    S. 745, introduced by Senator Abraham, would require funding for 
much-needed increases in manpower and resources for the Border Patrol, 
I&NS, and Customs Service. The National Border Patrol Council supports 
this initiative and commends you, Senator Abraham, for your tireless 
commitment to strengthen our borders. Your leadership, as well as 
Senator Kennedy's and that of other members of this Subcommittee, has 
been invaluable on this and other immigration enforcement issues, and 
is greatly appreciated.
    We ask Congress to ensure that any legislation that adds manpower 
to the Border Patrol on the northern border and Southeast specify that 
such personnel be voluntarily transferred from the ranks of experienced 
officers for three reasons. First, the complexity of the work on the 
northern border and Southeast is generally greater than that on the 
southwestern border, requiring agents that already have field 
experience. Second, the northern border and Southeast do not have the 
resources to property train new agents. Third, and by no means least 
importantly, placing new-hires in highly desirable locations on the 
northern border and Southeast that current officers have been waiting 
years totransfer to would have a devastating effect on morale, 
exacerbating on already high attrition rate.
    In addition to the equipment and manpower specified in S. 745, 
there needs to be specific language directing additional resources to 
the Border Patrol, particularly on the northern border and Southeast. 
Sad experience has shown that the I&NS will not do the right thing 
unless it is ordered to do so.
    One of the most frustrating aspects of my job is encountering 
illegal aliens that have to be released because there is no money to 
detain and remove them. This problem also needs to be addressed.
    In addition to the equipment specified in S. 745, consideration 
should also be given to funding long-range patrol boats for the Border 
Patrol. These boats should be large enough to be suitable for cold 
weather and/or rough water operations as well as search rescue 
applications, and outfitted with LORUS night vision scopes.
    Additionally, funding should be provided for upgrading field 
communications equipment and intrusion sensors for the northern border 
and Southeast. The systems employed throughout these areas are 
antiquated and inadequate by any standards.
    We commend Senator Abraham and this Subcommittee for the vision to 
provide funding for 40 intelligence analysts to be deployed in drug 
trafficking areas. This would be the first time that the Border Patrol 
would have a trained staff of intelligence personnel to gather and 
disseminate the raw intelligence gathered from the field.
    In closing, the longer it takes to increase officers and support 
personnel, modernize and augment technology, and provide adequate 
detention and removal funding on the northern border and Southeast, the 
more attractive these areas will be for alien and drug smugglers.
    Thank you all for your time, and I will be happy to answer any 
questions.

    Senator Abraham. Inspector Callister.

                 STATEMENT OF RYAN H. CALLISTER

    Mr. Callister. Mr. Chairman, I would like to thank you for 
this opportunity to express my perspective on the security of 
the northern border of the United States of America and of the 
role of the immigration inspector in this vital issue.
    My name is Ryan Callister. I am a steward for Local 40, 
American Federation of Government Employees, and an inspector 
for the last 3 years at Eastport, ID. The Eastport, ID, port of 
entry is staffed 24 hours a day with four Immigration and 
Naturalization Service employees and eight U. S. Customs 
Service employees. At times, the four INS employees work long 
hours on overtime and the schedule is augmented with part-time 
and detailed inspectors.
    The constant lack of sufficient staff on the entire 
northern border has a deleterious effect on border security. 
There are simply not enough inspectors to do the job. INS 
management at the ports of entry are constantly juggling shift 
coverage. Some 24-hour ports of entry have even had to 
eliminate the Immigration midnight shift. This has resulted in 
overburdening Customs, and has caused friction between the two 
agencies.
    A major contributing factor in the lack of staffing is that 
Immigration inspectors have not been designated as Federal law 
enforcement officers by the Department of Justice or by 
Congress. This negatively impacts recruitment and retention of 
Immigration inspectors. Inspections is no longer a favored path 
within INS. As soon as inspectors finish their 18-week basic 
training course, they are looking for better jobs in the INS or 
other agencies which provide greater pay, benefits, and law 
enforcement coverage.
    Currently, there is an approximately 15-percent turnover 
annually in the inspections program nationwide. This 
necessitates that the agency rely more on part-time help and 
60-hour-plus work weeks for those inspectors who remain. There 
is not even benefit parity with our brothers and sisters in the 
Customs Service.
    Inspectors have been empowered by the Attorney General to 
interrogate any alien or person believed to be an alien as to 
his right to be or remain in the United States, to arrest any 
alien who, in his presence or view, is entering the United 
States in violation of any law or regulation pertaining to the 
Immigration and Nationality Act, and the authority to carry a 
firearm. Inspectors have even recently been issued bullet-proof 
vests. As the saying goes, if it looks like a duck, talks like 
a duck, and walks like a duck, then it is a duck. The 
Inspections Branch is past due for law enforcement coverage.
    In the last 10 years, the southern border has been 
augmented with many new positions, while the northern border 
has not. It is equally important for the northern border to be 
adequately staffed. People do not build walls around three 
sides of their home and expect to keep out unwanted 
individuals. This is what has happened with respect to 
America's undermanned northern border.
    It is not a coincidence that the Ahmed Ressam incident 
occurred in Port Angeles, WA, in December. Anyone, including 
terrorists, can read about the 3,987 miles of virtually 
unguarded border between Canada and the United States.
    It is interesting to note that with the Ressam case, INS 
had encountered him at a pre-inspection station in Victoria, 
British Columbia, Canada, prior to his boarding the ferry for 
Port Angeles. However, INS had only one inspector working 
because the three other inspectors on duty that day were needed 
for inspections elsewhere. That one inspector had to single-
handedly inspect every vehicle and driver boarding the ship.
    The inspector felt Ressam's story was suspicious and did 
take a closer look at him. He checked Ressam's documents, which 
were valid, although issued under false pretenses. He also did 
a cursory inspection of his luggage and rental car. Had he had 
more time and help, the explosives might have been found. The 
ship was sailing and the inspector had to leave to conduct 
another inspection 40 miles away.
    A simple analogy is that America is like a house located on 
a flood plain. Congress has done the basic job of providing 
Immigration and Customs with enough sand bags to protect the 
front door when the river rises. But until there are enough 
sand bags to go around the house, you should not be surprised 
when the river rises that water comes through the back door.
    Within the last few weeks, Immigration Inspections has been 
informed that their budget on the northern border in Washington 
State, Idaho, Montana, Vermont, and elsewhere has been reduced 
from the insufficient levels of fiscal year 1999 to an even 
greater inadequacy for the year 2000. These reductions are 
exacerbated by the fact that the budget was not enacted until 
December, 3 months into the new fiscal year.
    In addition, massive amounts of overtime were spent in 
December 1999 and early January because of the World Trade 
Organization in Seattle, the advent of the millennium, and the 
heightened security alert due to the suspected terrorist 
interceptions in Vermont and Washington State.
    Recently deceased General Leonard F. Chapman, ex-
commissioner of INS, once said 5-ton trucks are not built to 
carry 10-ton loads. If Congress is serious about strengthening 
America's efforts to stem terrorism and the smuggling of aliens 
and illicit drugs on its northern border, then it must hire and 
fund an ample number of full-time inspectors to do the job. 
Senator Abraham's legislation, S. 745, is an important step in 
that direction.
    In addition, Congress must pass legislation that designates 
Immigration and Customs inspectors as law enforcement officers, 
and make the pay and benefits for these employees comparable 
with Federal and State law enforcement personnel.
    I again thank the subcommittee, Mr. Chairman.
    Senator Abraham. Thanks, Inspector. We appreciate it.
    [The prepared statement of Mr. Callister follows:]

                Prepared Statement of Ryan H. Callister

    Mr. Chairman and Members of the Subcommittee, I would like to thank 
you for this opportunity to express my perspective on the security of 
the Northern Border of the United States of America and the role of the 
Immigration Inspector in this vital issue. My name is Ryan H. 
Callister. I am a Steward for Local 40, American Federation of 
Government Employees, and an Immigration Inspector stationed for the 
last three years at Eastport, Idaho.
    The Eastport, Idaho Port of Entry is staffed twenty four hours a 
day with four Immigration and Naturalization Service (INS) employees 
and eight United States Customs Service (USCS) employees. At time, the 
four INS employees work long hour on overtime and the schedule is 
augmented with part-time and detailed Inspectors. The constant lack of 
sufficient staff on the entire Northern Border has a deleterious effect 
on border security. There are simply not enough Inspectors to 
accomplish the job. INS Management at the ports of entry are constantly 
``juggling'' shift coverage. Some twenty four hour Ports have even had 
to eliminate the Immigration midnight shift. This has resulted in 
overburdening Customs and has caused friction between the two agencies.
    A major contributing factor in the lack of staffing is that 
Immigration Inspectors have no been designated as Federal Law 
Enforcement Officers by the Department of Justice or by Congress. This 
negatively impacts recruitment and retention of Immigration Inspectors. 
Inspections is no longer a favored path within INS. As soon as 
Inspectors finish their eighteen week basic training course, they are 
looking for better jobs in the INS or other agencies which provide 
greater pay, benefits, and Law Enforcement coverage. Currently there is 
approximately a 15 percent turnover annually in the Inspection's 
program nationwide. This necessitates that the agency rely more on 
part-time help and sixty hours plus work weeks for those Inspectors who 
remain. There is no even benefit parity with our brothers and sisters 
in the Customs Service.
    Inspectors have been empowered by the Attorney General to 
interrogate any alien or person believed to be an alien as to his right 
to be or remain in the United States, to arrest any alien who in his 
presence or view is entering the United States in violation to any law 
or regulation pertaining to the Immigration and Nationality Act, and 
the authority to carry a firearm. Inspectors have been recently been 
issued bullet proof vests. As the saying goes, ``if it looks like a 
duck, talks like a duck, and walks like a duck, then it is a duck.'' 
the Inspector's Branch is past due for Law Enforcement coverage.
    In the last ten years, the Southern Border has been augmented with 
many new positions while the Northern Border has not. It is equally 
important for the Northern Border to be adequately staffed. People do 
not build walls around three sides of their home and expect to keep out 
unwanted individuals. This is what has happened with respect to 
America's undermanned Northern Border. It is not a coincidence that the 
Ahmed Ressam incident occurred in Port Angeles, WA in December. Anyone 
including Terrorists can read about the 3,987 miles of virtually 
unguarded border between Canada and the United States.
    It is interesting to note that with the Ressam case, INS has 
encountered him at a pre-inspection station in Victoria, BC Canada 
prior to his boarding the ferry for Port Angeles.However, INS has only 
one Inspector working because the three other Inspectors on duty that 
day were needed for inspections elsewhere. That one Inspector had to 
single handedly inspect every vehicle and driver boarding the ship. The 
Inspector felt Ressam's story was suspicious and took a closer look at 
him. He checked Ressam's documents, which were valid although issued 
under false pretenses. He also did a cursory inspection of his language 
and rental care. Had he had more time and help, the explosives might 
have been found; the ship was sailing and the Inspector had to leave to 
conduct another inspection forty miles away.
    A simple analogy is that America is like a house located on a flood 
plan. Congress has done the basic job of providing Immigration and 
Customs with enough sandbags to protect the front door when the river 
arises. But until there are enough sandbags to go around the house, you 
should not be surprised when the river rises that water comes through 
the back door.
    Within the last few weeks Immigration Inspections have been 
informed that their budget on the Northern Border in Washington State, 
Idaho, Montana, and elsewhere has been reduced from the insufficient 
levels of fiscal year 1999 to an even greater inadequacy for the year 
2000. These reductions are exacerbated by the fact that the budget was 
not enacted until December--three months into the new fiscal year. In 
addition, massive amounts of overtime were spent in December 1999 and 
early January because of the World Trade Organization (WTO) in Seattle, 
the advent of the millennium, and the heigtened security alert due to 
the suspected terrorist interceptions in Vermont and Washington States. 
Recently deceased General Leonard F. Chapman, ex-Commissioner of INS, 
once said, ``Five ton trucks are not build to carry ten ton loads.''
    If Congress is serious about strengthening America's effort to stem 
terrorism and the smuggling of aliens and illicit drugs on its Northern 
Border, then it must hire and fund an ample number of full-time 
Inspectors to do the job. Senator Abraham's legislation, S. 745, is an 
important step in that direction. In addition, Congress must pass 
legislation that designates Immigration and Customs Inspectors as Law 
Enforcement Officers and make the pay and benefits for these employees 
comparable with Federal and State law Enforcement Personnel.
    I thank the Subcommittee for the opportunity to present this 
testimony and I would be happy to answer any questions that you might 
have to the best of my abilities.

    Senator Abraham. Mr. Smith, good to have you here.

                   STATEMENT OF ORA A. SMITH

    Mr. Smith. Senator Abraham, members of the committee, it is 
an honor to speak to you today in support of Senate bill 745. 
For years, the news media, INS, and Congress has systematically 
practiced institutionalized neglect of our northern border. We 
are heartened by your introduction of S. 745, the Border 
Improvement and Immigration Act of 1999. It gives us something 
we have not had for years--hope.
    Increasing numbers of Eastern European illegals are 
entering the United States through our northern border. Many 
legally enter Canada before illegally crossing into the United 
States. These Eastern Europeans are not unskilled, menial 
laborers. They are taking American skilled trades workers' 
jobs. These illegals walk our streets unnoticed because they 
generally have no physically distinguishing ethnic 
characteristics.
    Mainland Chinese are showing up at northern border ports in 
record numbers. Since November, there have been over 40 
undocumented Chinese and 1 Chinese individual with a genuine 
Japanese passport apprehended at Detroit Metro Airport. 
Smugglers of illegal drugs and other contraband have also 
discovered the porosity of our northern border. Just ask our 
brothers and sisters who are border inspectors for Customs, 
Agriculture, and the Fish and Wildlife Service.
    The recent arrest of Ahmed Ressam is a prime example of why 
northern border Federal inspection programs must be 
strengthened. Today's terrorists do not dress as Mexican 
peasants and swim across the Rio Grande. They have the 
financial resources to buy the highest-quality counterfeit 
documents or, as in the case of Ahmed Ressam and the Chinese at 
Detroit, to fraudulently get real documents. Only a trained 
inspector can detect an illegal who has a genuine document.
    The Detroit border ports have seen an estimated 300- to 
400-percent growth in traffic over the past 10 years. The 
staffing shortage at Detroit has become critical. On January 
12, 2000, Detroit began ordering inspectors to work 8-hour 
overtime shifts instead of 4-hour overtime shifts. Less than 50 
full- and part-time inspectors work the auto line at the 
Detroit Bridge and Tunnel. The INS' own staffing model shows a 
requirement for 102 full-time inspectors. The INS solution to 
this problem has been to order more and longer overtime shifts. 
The situation at our Port Huron and Sault Ste. Marie, MI, ports 
is only marginally better.
    Staffing is also a problem at Detroit Metro Airport, the 
11th busiest international airport in the world. Metro 
inspectors average 45 to 50,000 inspections each per year, 
while inspectors at other airports average only 20 to 30,000. 
Seven new international flights, bringing an additional 1,400 
to 2,000 passengers per day, will begin arriving at Metro 
within the next 4 months. There is no planned increase of 
inspectors.
    In December 2001, a new terminal designed to accommodate 
4,000 arriving international passengers per hour is scheduled 
to open. The INS has known about this new terminal for 2 years, 
but we have seen no efforts to recruit more inspectors.
    Staff shortages at our airports are further exacerbated by 
an unrealistic congressional requirement to complete the 
primary inspection of an arriving flight in 45 minutes or less. 
Like the inspector who first encountered Ahmed Ressam, many of 
our best and most capable inspectors just don't have the time 
to do a proper inspection. Inadequate staffing, facilities, and 
equipment have made incomplete and/or poor inspections the rule 
at many busy ports.
    Many inspectors have simply quit questioning applicants or 
have tailored their questions to elicit safe answers. Many 
inspectors no longer make any attempt to determine the 
citizenship of persons crossing our international border. 
Recently, my counterpart in the Customs union stated that 
Customs inspectors at the Detroit truck docks, the busiest on 
the northern border, no longer bother to check for immigration 
violations because there are not any immigration inspectors to 
process them.
    Finally, I would like to thank Senator Abraham for 
including language in Senate bill 745 to adopt a sensible 
approach to the implementation of departure controls required 
by section 110 of the 1996 Immigration Act. The implementation 
of section 110 would do absolutely nothing to combat terrorism, 
alien smuggling, or address any other border security issues. 
We need more staff, better equipment, better training, and 
better facilities, not more ill-conceived missions of 
questionable value.
    The premature implementation of section 110 would serve 
only to destroy whatever tiny shreds of pride, professionalism, 
and esprit that are somehow surviving our current mistreatment 
by INS. I believe that if section 110 were implemented today, 
four to six of our Detroit inspectors would simply quit their 
jobs rather than face even more 16-hour shifts.
    I urge each and every member of this committee and the 
entire Congress in the strongest possible terms to get behind 
Senate bill 745 and make it a reality. If you want northern 
border security, it is time for you to make the commitment of 
giving us the recognition, pay, and grade of law enforcement 
officers, state-of-the-art equipment, proper training, and 
adequate facilities and manpower.
    Senator Abraham, members of the committee, if you make this 
commitment to the front-line employees, withouthesitation or 
reservation I promise you we will make it happen.
    Once again, thank you for the privilege of bringing my 
message to you. I will do my best to answer any questions you 
may have, and I would also request, Senator, that I be allowed 
to submit some supporting documentation into the record.
    Senator Abraham. Without objection, we will be glad to 
include in the record the additional documents, if any of you 
have anything to add to your opening statements. I also would 
like to submit the prepared statement of Colleen M. Kelly, 
National President, National Treasury Employees Union.
    [The prepared statement of Mr. Smith along with additional 
items referred to above follow:]

                   Prepared Statement of Ora A. Smith

    Senator Abraham, members of the committee, it is an honor to speak 
to you today in support of S. 745. For years, the news media, I&NS, and 
Congress have systematically practiced institutionalized neglect of our 
northern border. We are heartened by your introduction of S. 745, the 
Border Improvement and Immigration Act of 1999. It gives us something 
we have not had for years. HOPE!
    Since the end of the cold war, an increasing number of Eastern 
European illegals are entering the United States through our northern 
border. Many legally enter Canada before illegally crossing into the 
United States. These Eastern Europeans are not unskilled menial 
laborers. They are taking American skilled trades workers' jobs. These 
illegals walk our streets unnoticed because they generally have no 
physically distinguishing ethnics characteristics.
    Mainland Chinese are showing up at northern border airports and 
seaports in record number. Since November, there have been over 40 
undocumented Chinese, and one Chinese individual with a genuine 
Japanese passport, apprehended at Detriot Metro Airport.
    Smugglers of illegal drugs and other contraband have also 
discovered the porosity of our northern border. Just ask our brothers 
and sisters who are border inspector for Customs, Agriculture, and Fish 
and Wildlife.
    The recent arrest of Ahmed Ressam is a prime example of why 
northern border Federal Inspection Programs must be strengthened. 
Today's terrorists do not dress as Mexican peasants and swim across the 
Rio Grande. They have the financial resources to buy the highest 
quality counterfeit documents, or, as in the case of Ahmed Ressam and 
the Chinese at Detroit, to fraudulently get real travel documents. Only 
a trained Inspector can detect an illegal who has a genuine document.
    The Detroit border ports, have seen an estimated 300 to 400 percent 
growth in traffic over the past 10 years. The staffing shortage in 
Detroit has become so critical that on January 12, 2000, Detroit began 
ordering Inspectors to work eight hour overtime shifts instead of four 
hour overtime shifts.
    Less than 50 full and part-time Inspectors work the auto line at 
the Detroit bridge and tunnel. The I&N's own staffing model shows a 
requirement for 102 full-time Inspectors. The I&NS solution to this 
problem has been to order more and longer overtime shifts. The 
situation at our Port Huron and Sault Ste. Marie, MI ports is only 
marginally better.
    Staffing is also a problem at Detroit Metro Airport, the 11th 
busiest international airport in the world. Metro Inspectors average 
45,000 to 50,000 inspections each per year, while Inspectors at other 
airports average only 20,000 to 30,000. Seven new international flights 
bringing an additional 1,400 to 2,000 additional passengers per day 
will begin arriving at Metro within the next four months. There is no 
planned increase of Inspectors.
    In December 2001, a new terminal designed to accommodate 4,000 
arriving international passengers per hour is scheduled to open. 
Although the I&NS has known of this new terminal for more than two 
years, we have seen no efforts to recruit more Inspectors.
    Staff shortages at our airports are further exacerbated by an 
unrealistic Congressional requirement to complete the primary 
inspection of an arriving flight in 45 minutes or less. Often, this 
requirement is mathematically impossible, and can only be achieved if 
the Inspectors perform improper and/or incomplete inspections.
    Like the Inspector who first encountered Ahmed Ressam, many of our 
best and most capable inspectors just don't have the time to do a 
proper inspection. Inadequate staffing, facilities, and equipment have 
made incomplete and/or poor inspections the rule at many busy ports. 
Many Inspectors have simply quit questioning applicants, or tailored 
their questions to elicit ``safe answers''. Many Inspectors no longer 
make any attempt to determine the citizenship of persons crossing our 
International border.
    Recently, my counterpart in the Custom Union state that Customs 
Inspectors at the Detroit Truck Docks (the busiest on the northern 
border), no longer bother to check for immigration violations because 
there are not any Immigration Inspectors to process them.
     Finally, I would like to thank Senator Abraham for including 
language in S. 745 to adopt a sensible approach to the implementation 
of departure controls required by Sec. 110 of the 1996 Immigration Act. 
The implementation of Sec. 110 would do absolutely nothing to combat 
alien smuggling. We need more staff, better equipment, better training, 
and better facilities, not more ill conceived missions of questionable 
value.
    The premature implementation of Section 110 would serve only to 
destroy whatever tiny shreds of pride, professionalism, and espirit 
that are somehow surviving our current mistreatment by the I&NS. I 
believe that if Section 110 were implemented today, 4-6 of our Detroit 
Inspectors would simply quit their jobs rather than face even more 16 
hour shifts.
    I urge each and every member of this committee, and the entire 
Congress, in the strongest possible terms to get behind S. 745 and make 
it a reality. If you want northern border security, it is time for you 
to make the commitment of giving us the recognition, pay, and grade of 
Law Enforcement Officers; state of the art equipment; proper training; 
and adequate facilities and manpower.
    Senator Abraham, members of the committee, if you make this 
commitment to the front line employees, without hesitation or 
reservation, I promise you, ``we will make it happen.'' Once again, 
thank you for the privilege of bringing my message to you. I will do my 
best to answer any questions you may have.

[GRAPHIC] [TIFF OMITTED] T2523A.002

[GRAPHIC] [TIFF OMITTED] T2523A.003

[GRAPHIC] [TIFF OMITTED] T2523A.004

[GRAPHIC] [TIFF OMITTED] T2523A.005

[GRAPHIC] [TIFF OMITTED] T2523A.006

[GRAPHIC] [TIFF OMITTED] T2523A.007

[GRAPHIC] [TIFF OMITTED] T2523A.008

[GRAPHIC] [TIFF OMITTED] T2523A.009

[GRAPHIC] [TIFF OMITTED] T2523A.010

[GRAPHIC] [TIFF OMITTED] T2523A.011

[GRAPHIC] [TIFF OMITTED] T2523A.012

[GRAPHIC] [TIFF OMITTED] T2523A.013

[GRAPHIC] [TIFF OMITTED] T2523A.014

[GRAPHIC] [TIFF OMITTED] T2523A.015

[GRAPHIC] [TIFF OMITTED] T2523A.016

[GRAPHIC] [TIFF OMITTED] T2523A.017

[GRAPHIC] [TIFF OMITTED] T2523A.018

[GRAPHIC] [TIFF OMITTED] T2523A.019

[GRAPHIC] [TIFF OMITTED] T2523A.020

[GRAPHIC] [TIFF OMITTED] T2523A.021

[GRAPHIC] [TIFF OMITTED] T2523A.022

[GRAPHIC] [TIFF OMITTED] T2523A.023

[GRAPHIC] [TIFF OMITTED] T2523A.024

[GRAPHIC] [TIFF OMITTED] T2523A.025

[GRAPHIC] [TIFF OMITTED] T2523A.026

[GRAPHIC] [TIFF OMITTED] T2523A.027

[GRAPHIC] [TIFF OMITTED] T2523A.028

[GRAPHIC] [TIFF OMITTED] T2523A.029

[GRAPHIC] [TIFF OMITTED] T2523A.030

[GRAPHIC] [TIFF OMITTED] T2523A.031

[GRAPHIC] [TIFF OMITTED] T2523A.032

[GRAPHIC] [TIFF OMITTED] T2523A.033

[GRAPHIC] [TIFF OMITTED] T2523A.034

[GRAPHIC] [TIFF OMITTED] T2523A.035

[GRAPHIC] [TIFF OMITTED] T2523A.036

[GRAPHIC] [TIFF OMITTED] T2523A.037

[GRAPHIC] [TIFF OMITTED] T2523A.038

[GRAPHIC] [TIFF OMITTED] T2523A.039

[GRAPHIC] [TIFF OMITTED] T2523A.040

[GRAPHIC] [TIFF OMITTED] T2523A.041

[GRAPHIC] [TIFF OMITTED] T2523A.042

[GRAPHIC] [TIFF OMITTED] T2523A.043

[GRAPHIC] [TIFF OMITTED] T2523A.044

[GRAPHIC] [TIFF OMITTED] T2523A.045

    [The prepared statement of Colleen M. Kelley follows:]

                Prepared Statement of Colleen M. Kelley

    Chairman Abraham and members of the Subcommittee, thank you for the 
opportunity to submit the views of the National Treasury Employees 
Union (NTEU) on the issue of border security. NTEU represents over 
150,000 federal employees. About 8,000 of these workers are inspectors 
and canine enforcement officers (CEOs) of the U.S. Customs Service. 
They are stationed at 301 ports of entry around the United States and 
in Canada and the Caribbean.
    Customs inspectors and CEOs make up our nation's first line of 
defense in the war on drugs. In addition to this primary mission, they 
are responsible for stopping sophisticated and dangerous narcotics 
smuggling, international money-launderers, arms smugglers, child-
pornographers, fugitives from justice and, the subjects of this 
hearing, suspected international terrorists.
    We are pleased and proud that you invited Inspector Diana Dean to 
testify today about her role in safeguarding American lives by 
apprehending Ahmed Ressam at the Canadian border in Port Angeles, 
Washington. Inspector Dean is a member of NTEU, and one of the brave 
officers who risks her life daily in the performance of her duty. No 
one knows what tragedy would have befallen American communities in mid-
December 1999 had Ahmed Ressam been cleared to enter the United States 
with over 100 pounds of bomb making supplies in the trunk of his car. 
In addition to Diana Dean, Customs inspectors, Mark Johnson, Carmon 
Clem and Mike Chapman are owed a debt of gratitude from us for their 
quick and clear thinking and their responsiveness.
    What many people do not know is that these inspectors, the first 
line of defense against terrorism, are not considered to be federal law 
enforcement officers under current statute and regulation. This is a 
long-standing injustice that must be corrected. H.R. 1228 and S. 718 
would extend law enforcement officer status to Customs and INS 
inspectors and give them the benefit of twenty-year retirement that 
they so obviously deserve.
    It has become increasingly more difficult for the Customs Service 
to recruit the best and the brightest to the ranks of Customs 
inspectional personnel. Once new Customs' recruits learn that they are 
not provided the benefits of law enforcement officers in other agencies 
and the private sector, they take their newly trained skills elsewhere. 
This is a preventable situation that can be cured by designating 
Customs inspectors and CEOs as law enforcement officers.
    Customs inspectors work side-by-side with Customs agents, FBI 
agents, and local police to carry out anti-terrorist contingency plans. 
Around the country, they take the lead in boarding ships and suspicious 
flights searching for stowaways and illegal narcotics and contraband. A 
Customs inspector's training includes criminal law, arrest authority 
and arrest procedures, seizure and search authority techniques, self-
defense tactics, frisk and pat down procedures, hand cuffing, and take 
down procedures, anti-terrorism, and firearms use.
    All inspectors are issued firearms to protect themselves, their 
fellow inspectors and the public. Commissioner Kelly's recent decision 
to allow Customs inspectors to carry their weapons 24 hours a day was a 
necessary response to the constant threat of violence faced by 
inspectors in the performance of their duties at all ports. Currently 
inspectors and CEOs are required to qualify on a firing range three 
times a year.
    All of the training and experience mentioned above was used in the 
apprehension of Ahmed Ressam. Inspector Dean used her experience and 
skills in interrogation to become highly suspicious of Mr. Ressam's 
responses to routine questioning. Inspector Mark Johnson was required 
to pat down Mr. Ressam in the secondary area. After he escaped 
detention, Inspector Johnson chased him and ``took him down.'' He hand 
cuffed Ressam and placed him under arrest. This is not a rare 
occurrence at a port of entry. This is a job requirement. These Customs 
inspectors and their fellow inspectors and CEOs around the country 
should be granted law enforcement officer status under Title 5, section 
8336(c)(1).
    In the immediate wake of Ahmed Ressam's arrest in December, Customs 
Commission Raymond Kelly declared the agency to be in a heightened 
state of alert. This declaration forced a look at the working 
conditions and security assessment on the Northern Border. The picture 
was not pretty. In many areas of the 4,000-mile border, travelers were 
being cleared to enter the United States by a remote video inspection 
system (RVIS). This system requires travelers to look into a camera 
manned by a Customs inspector positioned, in some cases, over 100 miles 
away. The effectiveness of this method of clearance is obviously 
flawed. There is no way of requiring a traveler to drive his or her 
vehicle to an open entry port for a more thorough inspection, and what 
criminal would comply with that request from an inspector on a monitor. 
RVIS has been suspended since the heightened state of alert. It is our 
hope that the Customs Service will permanently abandon the RVIS program 
to concentrate on more effective ways of protecting our borders.
    The heightened state of alert confirmed what NTEU has been 
emphasizing for years. The Customs Service is poorly funded and sorely 
lacks the adequate resources, staffing and technology to keep pace with 
the burgeoning trade and travel across America's borders. After 
Ressam's capture, the issue of inadequate staffing levels was not just 
a matter of travelers tolerating long lines at border crossings, we 
were forced to examine staffing levels from the perspective of the 
safety of human lives from terrorist attack.
    The heightened state of alert required inspectors to relocate to 
the Northern Border from inland airports and all over the United 
States. There was immediate expanded shift coverage where Customs had 
been operating at below minimum staffing levels. The ``one-man'' ports 
of entry were recognized to be too dangerous and risky, so two 
inspectors were assigned to all locations.
    Inspectors worked extra shifts, some clocking 16-hour days all 
week. Most worked double shifts at least twice a week. All rank and 
file inspectors as well as non-uniformed Customs employees and their 
families made sacrifices. Approved vacation and holiday leave was 
canceled; the days were long and stressful. The weather conditions were 
horrendous and the atmosphere was one of danger and apprehension. These 
were extreme conditions under which to work. The Customs employees, who 
gladly gave what was required of them to their agency during this time, 
must be appreciated and recognized for it. Through their hard work, we 
greeted the new century without tragedy.
    The Customs Service is now operating in a scaled back state of 
alert, but the problems have not disappeared. Additional resources have 
not been budgeted to hire more Customs inspectors on the Northern 
Border, and the woefully inadequate staffing levels will remain unless 
there is a push from Congress to recognize this dangerous and 
unacceptable situation and appropriate more funds for Customs.
    We welcome Senator Abraham's proposal, S. 745, that would authorize 
more staffing and resources for Customs, and we pledge to support this 
bill and any others that recognize that adequately funding the Customs 
Service and supporting the employees who perform its mission should be 
a legislative priority.
    In August the Senate passed its version of H.R. 1833, the Customs 
Authorization Act, that would authorize, but not appropriate, 
additional resources and staffing for Customs all around the country. 
We commend the Senate for its interest in this issue, and for 
supporting the dedicated men and women of the Customs Service by 
refusing to include in its bill attacks on their night pay that were 
included in the House's version of H.R. 1833.
    Thank you.

    Senator Abraham. Of course, we from Michigan have a pretty 
good feel for the challenges that are confronted there. I 
suspect it is a little different in Idaho just because of the 
nature of the geography.
    Let me just ask, first of all, a question similar to the 
one I did in the last panel, which is what has been the level 
of cooperation with the Canadian officials or your counterparts 
in the other law enforcement agencies in terms of trying to 
maintain border security? Is it your sense that they are 
working as effectively as we heard in the last panel and that 
they are doing the things that we need them to do to help make 
sure that the border is safe?
    Mr. Lindemann. Yes, sir. On my level, on a field agent 
level, Ontario Provincial Police, the Royal Canadian Mounted 
Police, and the various other police departments, Windsor P.D., 
go well above and beyond the call of duty in providing us with 
whatever information we need, and that is something we don't 
experience at all on the southern border.
    Mr. Callister. I agree. We have very good rapport with the 
Canadians. It can involve other things other than terrorists, 
such as drug smuggling or whatever, but we do work together 
well.
    Mr. Smith. I believe we have excellent coordination with 
Canada. Our intelligence officer is in contact with the 
Canadian police departments at all levels on a daily basis. 
Many of our look-outs are generated through his contacts with 
the Canadian law enforcement officials.
    Senator Abraham. Let me just ask you, Inspector Smith, the 
President's budget, as I mentioned, proposes--although it 
proposes the addition of about 117 or so new inspectors, it 
turns out that about 87 of them end up going to new ports of 
entry. Is it your judgment that 28 new inspectors for the 
entire country will meet the shortage problem that we confront 
right now?
    Mr. Smith. Senator, I believe we need at least 70 just in 
the Detroit district alone. So 28 is far short of our 
requirements.
    Senator Abraham. Inspector Callister.
    Mr. Callister. Well, I look forward to going back to 12-
hour days when I get back to my port. There are three 
inspectors there to work 24 hours, so we definitely need 
probably double that, at least.
    Senator Abraham. Well, let me just throw out something else 
that we have talked about before, but I want to kind of for the 
record address it--probably you, Mr. Lindemann, would be the 
best--but the absence of detention space and what challenges 
that presents to us in the Detroit region.
    Mr. Lindemann. In a nutshell, it devastates morale. In the 
last 8 days, we have had money; miraculously, it came through. 
But for the preceding year, we had little or no detention 
money. We could not detain anybody. We were having people we 
were arresting on outstanding warrants of deportation. We 
attempted to reinstate those. No money. It has had a 
devastating effect on any type of border control.
    We have been constantly arresting smuggled loads of Chinese 
up in the Port Huron area on a regular basis, as well as INS 
investigators. We don't detain any of them. We arrest them, 
process them, and let them go. There is no deterrent. Now, it 
is my understanding it is getting so bad at the ports of entry 
that the Chinese are foregoing the process of a smuggler and 
turning themselves in. I believe that occurred on the southern 
border at one of the southern ports of entry. They are just 
saying, well, if they are not going to detain us or deport us, 
why take a chance of crossing across the river and possibly 
drown?
    Senator Abraham. They basically allow themselves to be----
    Mr. Lindemann. I will just go to the port of entry and turn 
myself in. That is clearly not an enforcement strategy.
    Senator Abraham. That sort of beats asylum-seeking, too, 
doesn't it?
    Mr. Lindemann. Exactly. I mean, if that is the point, why 
not just pack us up and send us to the southern border?
    Senator Abraham. Unbelievable. If there is any 
documentation of that that can be provided, we would appreciate 
it.
    Mr. Lindemann. As far as releasing aliens from custody?
    Senator Abraham. Or that it is becoming a pattern that is 
increasing in terms of people turning themselves in.
    Mr. Lindemann. Yes, sir.
    Senator Abraham. Anything that would support that anecdotal 
evidence would be helpful to us.
    Mr. Lindemann. I do have that with me, as a matter of fact.
    Senator Abraham. Great, thank you.
    Let me, in light of the time, and we got started a little 
bit late, just throw out one last question and allow you to 
kind of address in any way you want. Is there anything else 
that you would like to address with respect to the impact of 
inadequate staffing in terms of what those problems--I mean, 
you know, when we talk about the issues of terrorism across the 
border, and so on, obviously there is an enormous range of 
issues that can be brought up in terms of U.S.-Canadian 
relations, in terms of various kinds of technologies, and so 
on.
    But can you perhaps each address in a very specific sense 
what the risk in terms of the terrorist risk is if we continue 
as inadequately staffed as you have each characterized the 
current situation? We will start with you, Inspector Smith.
    Mr. Smith. I think it is only a matter of time before 
terrorists that have more nefarious intentions than Ahmed 
Ressam did simply walk across our border. I think we are 
deluding ourselves if we say that it will not happen.
    Senator Abraham. If we don't staff up to the levels that 
are needed?
    Mr. Smith. Yes, sir.
    Senator Abraham. Inspector Callister.
    Mr. Callister. I mentioned earlier that we are working 12-
hour shifts. What does that do to the body? I don't feel that I 
am adequately prepared to handle certain situations that might 
arise, and I am sure everybody else agrees with me. Safety is a 
big issue. So if we have the terrorists coming through, they 
could come through our port, they could walk around our 
geographical area. But we do definitely need additional staff, 
sir.
    Senator Abraham. Mr. Lindemann.
    Mr. Lindemann. Not to be another doomsayer, but we are in 
the same boat. In Port Huron, they cover several miles of area 
which is experiencing out-of-control smuggling. They have three 
agents to cover that, with one supervisor. That leaves several 
hours out of every day when there is no one available. So I 
mean I don't know how to answer that any more than that.
    Senator Abraham. I think the point we are trying to make 
here in the hearing is that there is a clear connection between 
the levels of staffing and the potential risk that we confront.
    We have kind of run out of patience, I guess, around here a 
little bit about this issue. I mean, when these events happened 
in Port Angeles over the holidays and I was watching them, I 
was, or course, immediately reminded of the last hearing we 
had--I think, Mr. Lindemann, you were down here for it--and the 
fact that we have heard continuously from the people on the 
front lines that they don't have anything close to the level of 
agents that they need, or inspectors, on the northern border.
    That is why I have been writing regularly to the heads of 
the agencies to ask for more of an allocation, recognizing that 
we don't want to leave some other part of the country 
vulnerable, but at the same time assuming that we were at least 
going to succeed in increasing on a net basis by 1,000 agents 
per year and at least in terms of Border Patrol getting some of 
the manpower we required. That is why we introduced the 
legislation you have all spoken about here today, S. 745.
    As I suggested before, the thing that amazes me is that 
this is a situation where Congress is prepared to provide the 
support that the agencies need. Most other subcommittees have 
agency heads and representatives in here begging for more 
support and essentially being told that they will have to live 
with what they have got or with slight increases.
    Here, there is a strong bipartisan consensus to provide the 
support that is needed, and yet we can't seem to get the job 
done. I mean, we are prepared to appropriate enough money to 
hire 1,000 new Border Patrol agents. I think if we pass our 
legislation, we would have the ability to have the resources 
for the inspectors.
    Again, maybe this is a function of Government. I don't 
know. Maybe Government just can't operate. But if this was the 
private sector, I don't think it would be that challenging in 
terms of if a company needed to add more sales personnel or 
needed to add more accountants or whatever. They would be able 
to do that. I can't imagine the government in the State of 
Michigan, if it needed certain increases in personnel, failing 
to be able to fill the positions.
    We recognize there are some things that make it harder. 
That is why we have also tried to address the issues of pay and 
benefits because it is not easy to keep people in positions, as 
been mentioned here, for a variety of reasons. But we are going 
to do our best.
    I just want to finish this round by thanking you all for 
being here. I am going to do my very best to convey your 
sentiments--and I know the sentiments you are conveying 
represent those of the people beyond you in the services--to 
our colleagues. Hopefully, we can, as a result of that, build 
even greater momentum to pass the legislation, but also to get 
the cooperation of the administration.
    It is very difficult to guard the borders if we have got 
only a few hundred agents for the thousands of miles we have in 
the north. It is very hard in an area like Michigan, which has 
the largest amount of--there is more trade over the Ambassador 
Bridge in Detroit, just one bridge between the United States 
and Canada--there is more trade over that bridge, just that one 
facility, than all American trade with Japan combined. And 
right behind it are the tunnel in Detroit and the Blue Water 
Bridge in Port Huron in terms of ports of entry and in terms of 
economic activity. To have 30 agents representing the whole 
region is just simply not enough. So we will keep working on 
it.
    We appreciate your testimony because it is probably the one 
thing which we can effectively use more than any other to try 
to get the message across, and we will do our best to convey 
it. Thank you for being here.
    The hearing will now be adjourned.
    [Whereupon, at 4:11 p.m., the subcommittee was adjourned.]

                                <all>

</pre></body></html>
